APPENDIX TABLE OF CONTENTS
Decision Affirming District Court’s Orders
Dismissing Complaint United States
Court of Appeals for the Eleventh Circuit
(July 17, 2019) .................................................... 1a
Order Denying Petition for Rehearing En Banc
and Panel Rehearing
(September 20, 2019)........................................ 15a
Amended Partial Final Judgment of the District
Court for the Northern District of Florida
(March 13, 2018) ............................................... 17a
Order of the District Court for the Northern
District of Florida (March 12, 2018) ................ 18a
Amended Order Granting Motion to Dismiss of
the District Court for the Northern District of
Florida (January 4, 2018)................................. 20a
Order Granting Defendant Justices’ Motion to
Dismiss District Court for the Northern
District of Florida (October 31, 2017) .............. 23a
Ordering Denying Certiorari Supreme Court of
the United States (March 31, 2014) ................ 29a

APPENDIX TABLE OF CONTENTS (Cont.)
Complaint Filed in Federal District Court
(February 24, 2017) .......................................... 30a
Decision Affirming Board’s Permanent
Denial Recommendation, Supreme Court
of Florida (February 9, 2012) ........................... 83a
Letter from Florida Board of Bar Examiners
to Cynthia Hesse, Esquire, Notice of Board
Action (July 22, 2010)....................................... 93a
Findings of Fact, Conclusions of Law and
Recommendation (October 19, 2010) ............... 95a
Letter from Florida Board of Bar Examiners
to Ms. Cynthia Hesse, Esquire
(October 19, 2010) .......................................... 114a
Transcript of Board Hearing Panel’s
Post-Deliberations (July 15, 2010) ................ 115a
Order to Show Cause Supreme Court of
Florida (May 6, 2013) ..................................... 119a
Florida Board of Bar Examiners’ Findings
Worksheet, Public Formal Hearing
(July 15, 2010) ................................................ 121a
Letter from Florida Board of Bar Examiners
to Formal Hearing Panel
(September 15, 2010)...................................... 123a
Ordering Denying Certiorari Supreme Court
of the United States (October 1, 2012) .......... 125a
Order Dismissing Motion to Vacate, Supreme
Court of Florida (October 18, 2013) ............... 126a

App.1a
DECISION AFFIRMING DISTRICT COURT’S
ORDERS DISMISSING COMPLAINT UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
(JULY 17, 2019)
UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT
________________________
WILLIAM CASTRO,

Plaintiff-Appellant,
v.
R. FRED LEWIS, in His Official Capacity as
Justice of the Florida Supreme Court, BARBARA J.
PARIENTE, in her official capacity as Justice of the
Florida Supreme Court, JORGE LABARGA, in his
Official Capacity as Justice of the Florida Supreme
Court, PEGGY A. QUINCE, in Her Official Capacity
as Justice of the Florida Supreme Court, CHARLES
T. CANADY, in His Official Capacity as Justice of
the Florida Supreme Court, RICKY POLSTON, in
His Official Capacity as Justice of the Florida
Supreme Court, C. ALAN LAWSON, in His Official
Capacity as Justice of the Florida Supreme Court,
THOMAS ARTHUR POBJECKY,
in His Individual Capacity,

Defendants -Appellees.

________________________
No. 17-15638

App.2a
Before: MARCUS, Jill PRYOR
and ANDERSON, Circuit Judges
PER CURIAM
Plaintiff-Appellant William Castro appeals from
the district court’s orders granting the motions to dismiss filed by the Justices of the Florida Supreme Court
sued in their official capacity (the “Justices”) and
Thomas Arthur Pobjecky, the General Counsel of the
Florida Board of Bar Examiners (the “Board”). On
appeal, Castro argues that the district court erred by:
(1) dismissing the complaint against all the appellees for
lack of subject matter jurisdiction under the RookerFeldman1 doctrine; and (2) dismissing the complaint
against Pobjecky for lack of standing. After thorough
review, we affirm.2
We review de novo the district court’s dismissal
for lack of subject matter jurisdiction based on the
Rooker-Feldman doctrine. See Lozman v. City of Riviera
Beach, 713 F.3d 1066, 1069 (11th Cir. 2013).
The relevant background is this. In 1994, Castro,
a former criminal defense attorney in Florida, was
charged and convicted in federal court on several
felony charges, including bribery, arising out of his
arrangement with a state court judge who agreed to
appoint Castro as a court-appointed defense attorney
1 Rooker v. Fid. Tr. Co., 263 U.S. 413, 44 S. Ct. 149, 68 L.Ed. 362
(1923); D.C. Ct. of App. v. Feldman, 460 U.S. 462, 103 S. Ct. 1303,
75 L.Ed.2d 206 (1983).
2 Because we affirm the district court’s dismissal of Castro’s claims
against all of the appellees on Rooker-Feldman grounds, we do
not address any of the remaining arguments made on appeal.

App.3a
in exchange for a percentage of the money Castro
earned from the appointments. As a result of his
criminal conviction, the Florida Supreme Court entered
an order in April 1994 suspending Castro from the
practice of law in Florida; it ultimately disbarred him
in November 1998, effective, nunc pro tunc, May 12,
1994, and prohibited him from seeking readmission
for a period of ten years. See Fla. Bar v. Castro, 728
So.2d 205 (Fla. 1998) In accordance with the 1998
disbarment order, Castro applied for readmission to
the Florida Bar in 2007, and the Florida Board of Bar
Examiners conducted a formal hearing in 2010.
Following the hearing, the Board’s five-member formal
hearing panel was not in agreement and split three
to two to deny admission. There was some discrepancy
over how much longer Castro would be denied admission; while the hearing panel’s majority indicated on
the record that Castro should be given a permanent
denial for being part of “a court corruption scheme”
that was so egregious and extreme, the panel’s notetaker, who was in the two-member minority, completed
a “Findings Worksheet” that did not have an option
for permanent denial and checked an option for a recommendation of denial for a two-year period. The
Board sent Castro a “Notice of Board Action,” indicating
that the panel had decided to deny admission with a
two-year disqualification period.
Using the formal hearing record, Pobjecky, as
the Board’s General Counsel, then drafted the Board’s
recommendation to the Florida Supreme Court, which
provided that “[t]he board recommends that William
Castro not be readmitted to The Florida Bar.” The
Board received the draft recommendation, along with
the “Findings Worksheet” and a cover letter from the

App.4a
Board’s Executive Director noting that different from
the Findings Worksheet, the draft recommendation
“does not set forth a specific period of disqualification”
and asked that “[i]f you disagree with this approach,
please state what action you wish to take.” The recommendation was approved by the Board, without
any changes to the length of disbarment or otherwise,
and sent to the Florida Supreme Court.
On Castro’s petition seeking review of the Board’s
recommendation, the Florida Supreme Court issued a
decision permanently denying Castro readmission to
the Florida Bar. See Fla. Bd. of Bar Exam’rs re: Castro,
87 So.3d 699, 702 (Fla. 2012), cert. denied, Castro v.
Fla. Bd. of Bar Exam’rs, 568 U.S. 932, 133 S. Ct. 339,
184 L.Ed.2d 240 (2012) The Florida Supreme Court
detailed Castro’s “scheme involving bribery and kickbacks to a sitting judge,” and described this “misconduct, involving corruption within the legal system,”
as “particularly egregious.” Id. It decided that although
Castro had engaged in thousands of community
service hours “in an effort to show his rehabilitation,”
“we agree with the Board’s conclusion that no demonstration of rehabilitation would ever suffice to allow
Castro’s readmission to the legal profession.” Id. Justice
Pariente filed a special concurrence, ultimately agreeing
with the majority’s decision. Id at 703-04.
At that point, Castro reviewed the record from
the Board hearing (which he had received on a compact
disc (“CD”) two years earlier), and concluded that the
formal hearing panel had instead recommended a
denial of admission with an opportunity to reapply in
two years instead of a permanent denial. Based on
his review of the records, he moved to vacate the
Florida Supreme Court’s decision, which he claimed

App.5a
had been fraudulently procured by the Board’s
misconduct. In response to the Florida Supreme Court’s
order for Castro to show cause why his motion should
not be dismissed as unauthorized, Castro argued that
it had the inherent authority to do so and authority
under the Florida Constitution. In its response, the
Board acknowledged the Florida Supreme Court’s
“general jurisdiction of this matter,” and addressed
the merits of Castro’s allegations of misconduct. The
Board noted that due to initial confusion, the Notice
of Board Action erroneously, and regrettably had
informed Castro that the panel voted for a denial of
admission with a two-year reapplication period, but
when the Board later sent the final recommendation
to Castro, the cover letter noted that the final recommendation differed from the Notice of Board Action
he’d received. The Board’s response to the Florida
Supreme Court’s show-cause order added that when
the panel received the draft recommendation for its
approval, the enclosed cover letter specifically had
highlighted the inconsistency in the length of
disbarment between the Findings Worksheet and the
draft recommendation, but that the panel had approved
the draft recommendation as written with no comment.
The Board concluded its response by arguing that the
Florida Supreme Court should dismiss Castro’s motion
as unauthorized because there was no fraud, misrepresentation or other misconduct by members of the
formal hearing panel, and no reason for the case to
be reopened. Upon receiving the responses to its showcause order, the Florida Supreme Court summarily
dismissed the motion to vacate as unauthorized.
Castro again filed a petition for writ of certiorari,
which the United States Supreme Court also denied.

App.6a

See Castro v. Fla. Bd. of Bar Exam’rs, 572 U.S. 1034,
134 S. Ct. 1761, 188 L.Ed.2d 593 (2014).

Thereafter, Castro filed a complaint in federal
district court against the Justices in their official
capacity, and Pobjecky in his individual capacity.
The complaint alleged that the disbarment procedure
had violated Castro’s substantive due process rights
and liberty interest to pursue his chosen profession;
procedural due process rights to notice and opportunity
to be heard; procedural due process right to an impartial
tribunal; and right of access to the courts. The complaint
also included a count for common law fraud under
Florida law against Pobjecky. Thereafter, the United
States District Court for the Northern District of
Florida granted the Justices’ motion to dismiss for
lack of subject matter jurisdiction based on the RookerFeldman doctrine, and, later, granted Pobjecky’s motion
to dismiss based on Castro’s lack of standing, and
alternatively, the Rooker-Feldman doctrine. The district
court then entered an amended order removing language indicating that the dismissal was with prejudice, and denied Castro’s motion for reconsideration.
Castro timely appealed the orders dismissing his
complaint.
In this case, the district court properly dismissed
Castro’s lawsuit against all of the appellees for lack
of subject matter jurisdiction under the RookerFeldman doctrine. The Rooker-Feldman doctrine is a
jurisdictional rule created by the Supreme Court that
precludes the lower federal courts from reviewing
state court judgments. Alvarez v. Att’y Gen. for Fla.,
679 F.3d 1257, 1262 (11th Cir. 2012) The Rooker–
Feldman doctrine “is confined to cases of the kind
from which [it] acquired its name: cases brought by

App.7a
state-court losers complaining of injuries caused by
state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 284, 125 S. Ct. 1517, 161 L.Ed.2d 454 (2005) In
order to determine which claims invite rejection of a
state court decision, we consider “whether a claim
was either (1) one actually adjudicated by a state
court or (2) one ‘inextricably intertwined’ with a state
court judgment.” Target Media Partners v. Specialty
Mktg. Corp., 881 F.3d 1279, 1286 (11th Cir. 2018) A
federal claim is inextricably intertwined with a state
court judgment “if it asks to effectively nullify the
state court judgment, or it succeeds only to the extent
that the state court wrongly decided the issues” Id.
(quotation omitted). A federal claim is not “inextricably
intertwined” “when there was no reasonable opportunity to raise that particular claim during the relevant
state court proceeding.” Id. (quotation omitted). Thus,
for a federal claim to be inextricably intertwined with a
state court judgment, the federal claim must raise “a
question that was or should have been properly before
the state court.” Id.
Here, the district court lacked jurisdiction over
Castro’s lawsuit under the Rooker-Feldman doctrine
because his claims are “inextricably intertwined”
with the Florida Supreme Court’s judgment permanently denying his admission to the Bar. Castro’s complaint alleged that Pobjecky, as the Board’s General
Counsel, drafted proposed factual findings, legal conclusions and a recommended disposition for review by
the Board panel that conducted Castro’s readmission
hearing. Using a transcribed portion of the panel’s

App.8a
deliberations in drafting this document, Pobjecky
allegedly committed fraud by providing that the Board
recommended a permanent denial. The Board panel
approved Pobjecky’s draft as written. Castro appealed
the Board’s recommendation to the Florida Supreme
Court, which agreed with the Board’s recommendation
and ordered that Castro’s prior conduct warranted
permanent denial of readmission to the Bar. On Castro’s
motion to vacate, the Florida Supreme Court rejected
Castro’s argument alleging fraud in the drafting of
the Board’s recommendation. Based on these allegations, Castro’s federal complaint raised due process
claims, as well as a count for common law fraud
against Pobjecky.
For starters, challenges to decisions by state
supreme courts disciplining attorneys for misconduct
often are precluded by the Rooker-Feldman doctrine.
In Doe v. Fla. Bar, 630 F.3d 1336, 1340-41 (11th Cir.
2011), we affirmed the Rooker-Feldman dismissal of
a plaintiff’s § 1983 claims arising out of the Florida
Bar’s use of confidential peer reviews as part of the
attorney certification process, because her claims
would require the district court to review the Florida
Supreme Court’s decision on her certification application. And in Berman v. Fla. Bd. of Bar Exam’rs, 794
F.2d 1529 (11th Cir. 1986), an unsuccessful bar
applicant brought § 1983 claims arising out of the
Florida Bar’s refusal to apply a repealed rule that
had exempted graduates of Florida law schools from
taking the bar exam. We affirmed the district court’s
Rooker-Feldman dismissal, holding that it lacked
jurisdiction over a claim “that a state court’s judicial
decision in a particular case has resulted in the
unlawful denial of admission to a particular bar

App.9a
applicant.” Id at 1530 As we’ve said, “it is clear that
the Rooker–Feldman doctrine forbids frustrated Florida
bar applicants from seeking an effective reversal of
the Florida Supreme Court’s decision in federal district
court.” Dale v. Moore, 121 F.3d 624, 627 (11th Cir.
1997); see also Johnson v. Supreme Court of Ill., 165
F.3d 1140, 1141 (7th Cir.1999) (“[T]he Rooker–Feldman
doctrine eliminates most avenues of attack on attorney
discipline.”).
Castro claims that Pobjecky fraudulently prepared
a document that ultimately was before the Florida
Supreme Court when it considered his readmission to
the Bar, which is similar to the circumstances in
Dale, 121 F.3d at 627 There, we held that a plaintiff’s
disability discrimination claims against the Florida
Bar were barred by the Rooker-Feldman doctrine,
where he was challenging a mental health report the
Bar had prepared about him in connection with his
application to the Bar. Id. Even though the Florida
Supreme Court admitted Dale to the Florida Bar, we
held that Dale’s claim was “inextricably intertwined”
with the state court’s decision on his bar application
because it would have required the federal district
court to review the Florida Bar’s inquiry into his
fitness to practice law and the report it prepared for
purposes of his bar admission. Id. So too here. By
asking the federal court to review the Board’s inquiry
into Castro’s eligibility for readmission and the recommendation it gave to the Florida Supreme Court,
Castro’s claims are inextricably intertwined with the
state court’s decision on his application for readmission.
To the extent Castro argues that the source of his
injury was the allegedly fraudulent Board’s recommendation prepared by Pobjecky, and not the Florida

App.10a
Supreme Court’s ultimate decision denying his readmission, that is a distinction without a difference.
When the Florida Supreme Court reviewed the
Board’s recommendation in denying his readmission,
it considered the record and issued its own decision
permanently denying him readmission to the Bar,
which included a separate concurrence from one of
the Justices. As we see it, Castro suffered no injury
until the Florida Supreme Court itself denied him
readmission.3
Indeed, Castro’s prayer for relief shows that he
is asking the district court to review and vacate the
Florida Supreme Court’s final judgment. Castro directly
asks for an order from the district court vacating the
Florida Supreme Court’s final judgment. He also seeks
relief that would accomplish the same result indirectly.
He seeks a mandatory injunction requiring the Justices
to admit him to the Bar or to issue a judgment imposing
a two-year readmission ban, as well as a declaration
that the Justices will continue to unlawfully enforce
the final judgment unless enjoined, and an injunction
against its enforcement. Throughout his prayer for
relief, he refers repeatedly to the judgment as “unlawful.” Based on the prayer for relief, we likewise reject
Castro’s argument that he is not claiming that the
Florida Supreme Court ruled erroneously. The relief
3 Because the complaint alleges that the fraudulent conduct
occurred during the course of Castro’s bar readmission proceedings, Castro appears to be alleging “intrinsic fraud” in the
Florida Supreme Court proceedings; intrinsic fraud “applies to
fraudulent conduct that arises within a proceeding and pertains
to the issues in the case that have been tried or could have been
tried.” Parker v. Parker, 950 So.2d 388, 391 (Fla. 2007) (quotation omitted). However, we know of no court to have ever recognized an intrinsic fraud exception to the Rooker–Feldman doctrine.

App.11a
Castro seeks plainly asks the district court to find
that the Florida Supreme Court wrongly decided
Castro’s case, “effectively nullif[ying] the state court
judgment.” Target Media Partners, 881 F.3d at 1286
(quotation omitted).4
Castro tries to avoid Rooker-Feldman by claiming
he did not have an opportunity to raise his instant
claims in state court. But Castro admits that before
he sought readmission by the Florida Supreme Court,
he was aware of at least these revealing documents—
the Notice of Board Action that informed Castro that
the panel voted for a denial of admission with a twoyear reapplication period, and a cover letter to Castro
(accompanying the final recommendation) that noted
that the final recommendation differed from the Notice
of Board Action in its length of disbarment. In addition,
Castro admits that he had received a CD with even
more information about the Board’s decision-making
process, including the internal report of Board proceedings that allegedly revealed Pobjecky’s fraud, but
he did not review the contents of the CD. All of these
materials were transmitted to the Florida Supreme
Court for its review of the Board’s recommendation.
See Fla. Bar Admiss. R. 3-40.1 (“At the time of the
4 While the complaint seeks damages from Pobjecky, it provides
no basis for any entitlement to damages. Rather, the complaint
concedes that damages would not afford Castro the relief he
seeks, averring that “[a] damages award against Defendant
Pobjecky alone would constitute an inadequate legal remedy”
unless the Florida Supreme Court’s judgment permanently disbarring him were overturned. In other words, Castro’s damages
claim could succeed “only to the extent that the state court
wrongly decided the issues” when it permanently disbarred him,
and was “inextricably intertwined” with the state court decision. See Alvarez, 679 F.3d at 1263 (quotation omitted).

App.12a
filing of the answer brief, the executive director will
transmit the record of the formal hearing to the court.”).
And in Castro’s 2012 petition for certiorari, which he
filed with the United States Supreme Court before he
allegedly reviewed the contents of the CD, he expressly
cited to the Notice of Board Action, as well as a cover
letter from the Executive Director to the Board,
which explained that the Findings Worksheet from
the Board had checked a two-year disbarment period,
while the Board majority had voted for permanent
disbarment, and gave the Board the option to change
the disbarment period in the final recommendation.
Thus, even before Castro initially sought review
of the Board’s recommendation in the Florida Supreme
Court, he was on notice that there was an inconsistency
in the record concerning the length of his disbarment
period, and could have either sought more information
from the Board, or reviewed the CD he already had
in hand, which contained the additional information
that formed the basis for his claims in federal court.
We’ve held that a federal claim is “inextricably
intertwined” for Rooker-Feldman purposes “when there
was [a] reasonable opportunity to raise that particular
claim during the relevant state court proceeding.”
Target Media Partners, 881 F.3d at 1286 (quotation
and citation omitted). So while we’ve held that a
plaintiff did not have a reasonable opportunity to
raise a claim in state court where a judgment was
entered pursuant to ex parte proceedings of which he
had no actual notice, Wood v. Orange Cty., 715 F.2d
1543, 1548 (11th Cir. 1983), we’ve also held that a
plaintiff had a reasonable opportunity to raise disability
discrimination claims against the Florida Bar in state
court where he was given notice of a mental health

App.13a
report the Bar had prepared about him and the Bar’s
rules permitted him to complain about the Bar’s recommendation to the Florida Supreme Court, yet he
failed to do so, Dale, 121 F.3d at 627 We’ve also held
that plaintiffs had a reasonable opportunity to present
constitutional claims during state juvenile court proceedings where “[t]he plaintiffs were both parties to
the state court proceeding, and ... they were present
and participated in the state court proceedings,” yet
failed to raise those claims. Goodman ex rel. Goodman
v. Sipos, 259 F.3d 1327, 1334 (11th Cir. 2001) Here,
before Castro appeared in the Florida Supreme Court
the first time around, he knew that the Board had
conducted disbarment proceedings, he had access to
all of the information forming the basis of his instant
claims, and, at the very least, he had a reasonable
opportunity to assert these claims in state court,
even though he failed to do so. Because his instant
claims “should have been properly before the state
court” when he initially sought review, Castro’s claims
are inextricably intertwined with the state court
judgment. Target Media Partners, 881 F.3d at 1286.5
5 Moreover, once Castro unsuccessfully sought review of the
Florida Supreme Court’s first decision in the United States
Supreme Court, he reviewed the contents of the CD and filed a
motion with the Florida Supreme Court to vacate its disbarment
order, raising all the same claims he raises now Although the
Florida Supreme Court summarily dismissed Castro’s motion to
vacate, the court requested responses from both parties, who
admitted the court had jurisdiction over the motion and argued
the fraud claims on the merits. As we’ve said in this context,
“the Supreme Court made clear in Feldman [that] the form of a
proceeding is not significant, because ‘[i]t is the nature and effect
which is controlling.’ ” Doe, 630 F.3d at 1341 (quoting Feldman,
460 U.S. at 482, 103 S. Ct. 1303). There is little to suggest that
as a procedural matter, the Florida Supreme Court could not

App.14a
Accordingly, the district court properly dismissed
Castro’s complaint for lack of subject matter jurisdiction
based on the Rooker-Feldman doctrine.
AFFIRMED.

have granted Castro relief based on the information contained
in his motion to vacate. Thus, not only did Castro have a reasonable opportunity to raise his claims in his first appearance
before the Florida Supreme Court, but it’s likely that he actually raised these claims in the motion to vacate, further supporting the “inextricably intertwined” nature of the claims.

App.15a
ORDER DENYING PETITION FOR REHEARING
EN BANC AND PANEL REHEARING
(SEPTEMBER 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
WILLIAM CASTRO,

Plaintiff-Appellant,
v.
R. FRED LEWIS, in his official capacity
as Justice of the Florida Supreme Court,
BARBARA J. PARIENTE, in her official capacity
as Justice of the Florida Supreme Court,
JORGE LABARGA, in his official capacity
as Justice of the Florida Supreme Court,
PEGGY A. QUINCE, in her official capacity
as Justice of the Florida Supreme Court,
CHARLES T. CANADY, in his official capacity
as Justice of the Florida Supreme Court,
RICKY POLSTON, in his official capacity
as Justice of the Florida Supreme Court,
C. ALAN LAWSON, in his official capacity
as Justice of the Florida Supreme Court,
THOMAS ARTHUR POBJECKY,
in his individual capacity,

Defendants-Appellees.

________________________

App.16a
No. 17-15638-AA
Appeal from the United States District Court
for the Northern District of Florida
BEFORE: MARCUS, JILL PRYOR and ANDERSON,
Circuit Judges.
PER CURIAM
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 3 5) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ENTERED FOR THE COURT:
/s/ Stanley Marcus
United States Circuit Judges

App.17a
AMENDED PARTIAL FINAL JUDGMENT OF
THE DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
(MARCH 13, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT FLORIDA
TALLAHASSEE DIVISION
________________________
WILLIAM CASTRO,
v.
JORGE LABARGA, ET AL.
________________________
Case No. 4:17-CV-236-MW/CAS
Plaintiff’s federal claims, Counts I, II, III, IV,
are dismissed without prejudice for lack of subject
matter jurisdiction against the Defendant Justices.
Jessica J. Lyublanovits
Clerk of Court
/s/ Cindy Markley
Deputy Clerk
Dated: March 13, 2018

App.18a
ORDER OF THE DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
(MARCH 12, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT FLORIDA
TALLAHASSEE DIVISION
________________________
WILLIAM CASTRO,

Plaintiff,
v.
JORGE LABARGA, ET AL,

Defendants.

________________________

Case No. 4:17-CV-236-MW/CAS
Before: Mark E. WALKER,
United States District Judge.
Mark E. Walker, United States District Judge
This matter is before this Court on remand for
the limited purposes of correcting its November 20,
2017, order and partial final judgment.
This Court dismissed Plaintiff’s claims against
Defendant Justices for lack of subject matter jurisdiction. But this Court improperly did so with prejudice.
Haste makes waste: this Court’s Order, ECF No. 56,
and the Clerk’s Judgment, ECF No. 57, should have
noted that the claims against Defendant Justices

App.19a
were dismissed without prejudice. This Order directs
the Clerk to vacate the judgment, ECF No. 57 By
separate amended order, this Court corrects the
scrivener’s error in this Court’s Order on Plaintiff’s
Motions for Reconsideration, ECF No. 56, and directs
the Clerk to enter an amended judgment pursuant to
the Eleventh Circuit’s order remanding the case for
this limited purpose. See Fed. R. Civ. P. 60(a).
SO ORDERED on March 12, 2018.

App.20a
AMENDED1 ORDER GRANTING MOTION TO
DISMISS OF THE DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
(JANUARY 4, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT FLORIDA
TALLAHASSEE DIVISION
________________________
WILLIAM CASTRO,

Plaintiff,
v.
JORGE LABARGA, ET AL,

Defendants.

________________________

Case No. 4:17-CV-236-MW/CAS
Before: Mark E. WALKER,
United States District Judge.

1 This Amended Order is identical to this Court’s prior Order, ECF
No. 62, except that it corrects a scrivener’s error to properly reflect
that all claims against Defendant Pobjecky are dismissed without
prejudice and directing the Clerk to enter judgment stating that the
claims are dismissed without prejudice. See Fed. R. Civ. P. 60(a)
(“The court may correct a clerical mistake or a mistake arising from
oversight or omission whenever one is found in a judgment, order, or
other part of the record. The court may do so on motion or on its
own, with or without notice.”).

App.21a
Mark E. Walker, United States District Judge
This Court heard Defendant Pobjecky’s Motion to
Dismiss, ECF No. 12, on December 7, 2017. For the
reasons set out on the record at the hearing and
summarized below, Defendant Pobjecky’s Motion to
Dismiss, ECF No. 12, is GRANTED.
Plaintiff lacks standing to proceed in this case.
No matter how Plaintiff seeks to recast or repackage
his claim, his injury ultimately boils down to the
Florida Supreme Court’s permanent denial of his
application for readmission to the Florida Bar. This
injury is fairly traceable to the Florida Supreme Court’s
decision to deny readmission and not to Defendant
Pobjecky’s alleged fraud. See, e.g., Lujan v. Defs. Of
Wildlife, 504 U.S. 555 (1992); see also Peregood v.
Cosmides, 663 So.2d 665, 668 (Fla. 5th DCA 1995)
(“To establish standing it must be shown that the
party suffered injury in fact (economic or otherwise)
for which relief is likely to be redressed and, in nonconstitutional situations, that the interest sought to
be protected falls within a statutory or constitutional
guarantee. . . . ”).
Alternatively, Plaintiff’s federal claims for
damages against Defendant Pobjecky are inextricably
intertwined with the final state court judgment, barring
further review in federal court under the RookerFeldman doctrine.

App.22a
The Clerk is directed to enter final judgment
stating, “Plaintiff’s state and federal claims are dismissed for lack of standing against Defendant Pobjecky,
and Plaintiff’s federal claims are further barred by
the Rooker-Feldman doctrine.” The Clerk shall close
the file.
SO ORDERED on January 4, 2018.

App.23a
ORDER GRANTING DEFENDANT JUSTICES’
MOTION TO DISMISS DISTRICT COURT FOR
THE NORTHERN DISTRICT OF FLORIDA
(OCTOBER 31, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT FLORIDA
TALLAHASSEE DIVISION
________________________
WILLIAM CASTRO,

Plaintiff,
v.
JORGE LABARGA, ET AL,

Defendants.

________________________

Case No. 4:17-CV-236-MW/CAS
Before: Mark E. WALKER,
United States District Judge.
Mark E. Walker, United States District Judge
This Court has considered, without hearing,
Defendant Justices’ motion to dismiss, ECF No. 38.
For the reasons stated below, the motion, ECF No.
38, is GRANTED.
Plaintiff William Castro (“Plaintiff”) applied for
readmission to the Florida Bar in 2007 after serving
a ten-year disbarment for his prior misconduct as an
attorney. Id. at 2. After conducting a formal hearing

App.24a
in 2010, the Florida Board of Bar Examiners (“Board”)
recommended that the Florida Supreme Court deny
Plaintiff readmission to the Florida Bar. Id. at 2-3.
The Florida Supreme Court subsequently approved
the Board’s recommendation. See Florida Bd. of Bar
Exam’rs re: Castro, 87 So.3d 699, 702 (Fla. 2012)
That same year, Plaintiff petitioned the United States
Supreme Court to review the Florida Supreme Court’s
decision permanently disbarring Plaintiff. Plaintiff’s
petition was subsequently denied. See Castro v. Florida
Bd. of Bar Exam’rs, 568 U.S. 932 (2012).
Thereafter, Plaintiff discovered evidence that he
believes proves the Board—specifically, Defendant
Thomas Pobjecky (“Defendant Pobjecky”)—engaged
in misconduct that led to his permanent disbarment.
ECF No. 1, at 20-22. As a result, Plaintiff moved for
leave to file a motion to vacate the Florida Supreme
Court’s decision to permanently disbar him. After the
Florida Supreme Court ordered the parties to brief
the issue, it denied Plaintiff’s motion for leave to file
the motion to vacate and dismissed his motion to vacate
as unauthorized. Id. at 30; ECF No. 1-9, at 2. Plaintiff
subsequently filed a second petition for writ of certiorari
challenging the Florida Supreme Court’s denial of his
motion to vacate, which the United States Supreme
Court also denied See Castro v. Florida Bd. of Bar
Exam’rs, 134 S. Ct. 1761 (2014).
Plaintiff now brings suit against Defendant
Pobjecky in his individual capacity, as well as Justices
Jorge Labarga, R. Fred Lewis, Barbara J. Pariente,
Peggy A. Quince, Charles T. Canady, Ricky Polston,
and C. Alan Lawson (collectively “Defendant Justices”)
in their official capacities as justices of the Florida

App.25a
Supreme Court.1 ECF No. 1, at 1. Plaintiff alleges
Defendant Justices violated his substantive and
procedural due process rights (Counts I-III), and his
constitutional right of access to courts (Count IV). Id.
at 34-44. Defendant Justices move to dismiss all counts
against them. ECF No. 38.
The relief Plaintiff seeks is a direct attack on the
Florida Supreme Court’s decision to deny his bar
application. An appeal from a Florida Supreme Court
decision does not lie to a United States District
Court. Berman v. Fla. Bd. Of Bar Exam’rs, 794 F.2d
1529, 1530 (11th Cir. 1986) If Defendant Justices
denied Plaintiff due process, their actions would
properly be reserved for review by the United States
Supreme Court. This principle is known as the RookerFeldman doctrine.2
Under the Rooker-Feldman doctrine, federal district courts lack subject matter jurisdiction over
“cases brought by state-court losers complaining of
injuries caused by state-court judgments rendered
before the district court proceedings commenced and
inviting district court review and rejection of those
judgments.” Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005) Plaintiff essentially
argues the Rooker-Feldman doctrine does not apply
for three reasons. This Court disagrees with each.
1 Plaintiff originally brought suit in the Southern District of
Florida. Castro v. Labarga, No. 1:16-cv-22297-JEM (June 20,
2016). After venue was transferred to the Northern District of
Florida, Plaintiff voluntarily dismissed his case, but has since
refiled his complaint. ECF No. 38, at 4.
2 Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C. Court of Appeals
v. Feldman, 460 U.S. 462 (1983).

App.26a
First, Plaintiff contends the Rooker-Feldman
doctrine does not apply because his injuries were not
caused by a state-court judgment. ECF No. 43, at 8.
Specifically, Plaintiff argues the source of his injuries
was Defendant Pobjecky’s alleged misconduct, not
the Florida Supreme Court’s judgment. Id. at 14-15.
However, the Florida Supreme Court—not the Board—
is vested with the sole authority to regulate the admission or denial of Florida bar applicants. See Fla.
Const. art. V, § 15; Fla Stat. § 454.021 (2016) Therefore, the source of Plaintiff’s injuries—i.e., permanent disbarment and the alleged denial of due
process—is the Florida Supreme Court’s judgment, not
any alleged misconduct by Defendant Pobjecky.
Second, similarly, Plaintiff contends his injuries
were not caused by a state-court judgment because
the Florida Supreme Court was unaware of Defendant
Pobjecky’s alleged misconduct when it permanently
denied his application, and because he did not have a
reasonable opportunity to raise his federal constitutional claims. ECF No. 43, at 8, 10-13. But the
Florida Supreme Court did consider Defendant
Pobjecky’s alleged misconduct when it denied Plaintiff’s motion for leave to file a motion to vacate its
decision permanently denying Plaintiff’s admission
to the bar. ECF No. 1, at 30; ECF No. 1-9, at 2.
Likewise, Plaintiff had a reasonable opportunity to
raise his federal claims in state court because he did,
in fact, raise his federal claims when he moved for
leave to file a motion to vacate the Florida Supreme
Court’s judgment. See ECF No. 1, at 22-30. The
Florida Supreme Court did not arbitrarily dismiss
Plaintiff’s motion for leave to file a motion to vacate,
but instead ordered Plaintiff to show cause why his

App.27a
motion to vacate should not be dismissed as unauthorized. See ECF No. 1-6, at 2. After considering arguments from both Plaintiff and the Board, the Florida
Supreme Court ultimately denied Plaintiff’s motion
to vacate. See ECF No. 1, at 23-30.
Plaintiff had another opportunity to raise his
federal claims when he filed a second petition for
writ of certiorari with the United States Supreme
Court challenging the denial of his motion for leave
to file a motion to vacate. See Castro v. Florida Bd. of
Bar Exam’rs, 134 S. Ct. 1761 (2014) Plaintiff had
multiple opportunities to raise his federal claims,3
which were denied by both the Florida Supreme Court
and the United States Supreme Court.
Third, and finally, Plaintiff contends the RookerFeldman doctrine does not apply because he is not

asking this Court to review and reverse or vacate a
state-court judgment. ECF No. 43, at 9. But both the
permanent denial of Plaintiff’s bar application and
the dismissal of Plaintiff’s motion to vacate are statecourt judgments.4 Doe v. Florida Bar, 630 F.3d 1336,
3 Plaintiff’s reliance on Wood v. Orange County, 715 F.2d 1543
(11th Cir. 1983) is misplaced. Specifically, the plaintiffs in Wood
were not provided a reasonable opportunity to raise their federal claims because they never filed a motion to set aside or
vacate the state court’s judgment. See id. at 1548 By contrast,
Plaintiff filed his motion to vacate the Florida Supreme Court’s
judgment in state court which provided him with a reasonable
opportunity to raise his federal claims.
4 Indeed, despite Plaintiff’s argument in his reply to Defendant
Justices’ motion to dismiss, Plaintiff asserted in his second
petition for writ of certiorari that the Florida Supreme Court’s
“order [denying leave to file a motion to vacate] is final, as it is
subject to no further review or correction in any other state
tribunal and constitutes an effective determination of the litiga-

App.28a
1341 (11th Cir. 2011); Wood v. Orange Cty., 715 F.2d
1543, 1548 (11th Cir. 1983) (“A denial of a [motion to
vacate] is, . . . appealable . . . as a separate judgment
in its own right.”); see also Deveaux v. HSBC Bank
USA, N.A., No. 15-24659-CIV-WILLIAMS, 2016 WL
6662469, at *2 (S.D. Fla. Feb. 24, 2016) The only way
Plaintiff’s claims succeed is if this Court reviews
those judgments and decides the Florida Supreme Court
wrongly decided the issues before it. In other words,
these claims are dead center of the Rooker-Feldman
doctrine.
In sum, because Plaintiff is a losing party in
state court who is complaining of injuries caused by
the state-court judgments, this Court lacks jurisdiction
under the Rooker-Feldman doctrine.
Accordingly,
IT IS ORDERED:
1.

Defendant Justices’ Motion to Dismiss, ECF
No. 38, is GRANTED.

2.

Counts I, II, III, and IV of Plaintiff’s complaint as to Defendant Justices, ECF No. 1,
are DISMISSED for lack of subject matter
jurisdiction.

3.

This Court does not direct entry of judgment
as to the dismissed claims pursuant to Fed.
R. Civ. P. 54(b) This Court will do so after
all claims are resolved against all parties.

SO ORDERED on October 31, 2017.

tion.” Petition for a Writ of Certiorari at 20, Castro v. Florida
Bd. of Bar Exam’rs, 134 S. Ct. 1761 (2014) (No. 13-857).

App.29a
ORDERING DENYING CERTIORARI
SUPREME COURT OF THE UNITED STATES
(MARCH 31, 2014)
SUPREME COURT OF THE UNITED STATES
________________________
WILLIAM CASTRO,

Petitioners,
v.
FLORIDA BOARD OF BAR EXAMINERS.
________________________
No. 13-857
OPINION
Petition for writ of certiorari to the Supreme
Court of Florida denied.

App.30a
COMPLAINT FILED IN
FEDERAL DISTRICT COURT
(FEBRUARY 24, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
________________________
WILLIAM CASTRO,

Plaintiff,
v.
JORGE LABARGA, R. FRED LEWIS,
BARBARA J. PARIENTE, PEGGY A. QUINCE,
CHARLES T. CANADY, RICKY POLSTON, and
C. ALAN LAWSON, In Their Official Capacities as
Justices of the Florida Supreme Court, and
THOMAS ARTHUR POBJECKY,
In His Individual Capacity

Defendants.

________________________
Case No.

The Plaintiff, WILLIAM CASTRO (“Plaintiff
Castro”), sues the Defendants Jorge Labarga, R. Fred
Lewis, Barbara J. Pariente, Peggy A. Quince, Charles
T. Canady, Ricky Polston, and C. Alan Lawson, in their
official capacities as Justices of the Florida Supreme
Court (collectively “Defendant Justices”), and Defendant
Thomas Arthur Pobjecky (“Defendant Pobjecky”), in
his individual capacity, states:

App.31a
PRELIMINARY STATEMENT
1. Corruption strikes at the very heart of our
justice system. So it is when a state court official
surreptitiously falsifies and changes a tribunal’s decision, he not only violates a litigant’s federal constitutional rights but undermines the public’s trust and
confidence in the impartiality of the judiciary and the
integrity of its participants. That such shocking, prejudicial misconduct was committed by the chief legal
officer of the agency entrusted to investigate the
character and fitness of applicants to The Florida Bar
and make admission recommendations to the Florida
Supreme Court only magnifies its egregiousness. This
lawsuit exposes that official’s wrongful actions and
the ongoing unconstitutional enforcement of a fraudulently-procured judgment by the state’s highest
court. It seeks both legal and equitable remedies in
this Court appropriate to the federal constitutional
violations committed by that state official, the refusal
of state supreme court justices to even address claims
relating to those flagrant violations on the merits and
the continuing nature of the injuries suffered.
2. Almost 20 years ago, the Florida Supreme Court
approved the recommendations of an appointed Circuit
Court Judge Referee and The Florida Bar that Plaintiff
Castro be disbarred for ten years nunc pro tunc to
the effective date of his 1994 suspension. Relying
upon that judgment and Bar Admission rules that
allowed a former attorney not permanently disbarred
to be readmitted upon successful completion of the
Bar examinations and proof of rehabilitation by clear
and convincing evidence, Plaintiff Castro applied for
admission in 2007 to the Florida Board of Bar
Examiners (“Board”).

App.32a
3. After Plaintiff Castro passed the Florida bar
examination, the Board held a formal hearing in July
2010 in Coral Gables, Florida to determine whether
he was rehabilitated. Plaintiff Castro’s evidence of
his having performed over 13,000 community service
hours was undisputed, and 32 current or former federal
and state court judges and over 100 attorneys testified
or submitted letters corroborating Plaintiff Castro’s
rehabilitation and urging his readmission. The Board
neither contested the overwhelming evidence of Plaintiff
Castro’s rehabilitation nor offered evidence of any
wrongdoing since his disbarment.
4. During his summation, the Board’s Associate
General Counsel conceded the overwhelming amount of
rehabilitation, acknowledged that the Board did not
have authority to recommend permanent denial, and
argued for a two-year deferment.
5. One week after that hearing, the Board advised
Plaintiff Castro that his application had been denied
but that he could reapply in another two years. While
that decision was deemed final under Bar Admission
Rules, the period within which to appeal that denial
to the Florida Supreme Court would not commence until
the Board filed its Findings of Fact, Conclusions of
Law and Recommendation with the Florida Supreme
Court.
6. Almost four months later, the Board submitted
a radically-different Findings of Fact, Conclusions of
Law and Recommendation to the Florida Supreme
Court which indicated that the “board conclude[d]
that no amount of rehabilitation w[ould] ever suffice
to allow the applicant’s readmission to the Florida
legal profession. . . . [based on] the egregious nature
of the applicant’s prior misconduct that eventually

App.33a
resulted in his criminal conviction, incarceration, and
disbarment.”
7. Not knowing how or why the recommendation of
the Board hearing panel had changed, Plaintiff Castro
unsuccessfully appealed the Board’s permanent denial
recommendation to the Florida Supreme Court and the
United States Supreme Court.
8. But on October 3, 2012 (just 2 days after the
United States Supreme Court denied his petition for
a writ of certiorari), Plaintiff Castro discovered the
existence of a transcript of the Board hearing panel’s
confidential post-deliberations discussions in which
the panel chair announced that its collective admissions
recommendation was denial (with three panelists voting
for denial and two others voting for Plaintiff Castro’s
admission) but with a two-year disqualification period
before he could reapply. Plaintiff Castro later obtained
a Findings Worksheet, akin to a verdict form, from
the Board, which confirmed that the panel had actually
recommended a two-year period of disqualification,
not permanent exclusion.
9. Within five weeks of discovering that the Board
hearing panel had not recommended permanent
exclusion as reported, Plaintiff Castro filed an ex
parte, sealed motion to vacate the fraudulently-procured
judgment in the Florida Supreme Court in November
2012, requesting an evidentiary hearing to address
federal claims relating to such misconduct and identify
who perpetuated the fraud.
10. During the course of that litigation, Defendant
Pobjecky, then General Counsel for the Florida Board
of Bar Examiners, was identified as the perpetrator
of this fraud.

App.34a
11. Defendant Pobjecky knew that: a) the Board’s
formal hearing panel had decided by a 3-2 vote to
deny Plaintiff Castro’s application for readmission to
The Florida Bar with a two-year waiting period to
reapply; and b) the version of Florida Bar Admission
Rule 3-23.6(d) then in effect precluded the Board
from recommending any denial period greater than 5
years.
12. Defendant Pobjecky nonetheless:
a)

changed the Board hearing panel’s decision
from a two-year denial recommendation to
permanent denial without notice to Plaintiff
Castro;

b)

helped Michele A. Gavagni (“Gavagni”),
Executive Director of the Florida Board of
Bar Examiners, prepare an ex parte communication to two of the five formal hearing panel
members concerning the recommendation
the collective panel had made and requesting
approval of the fraudulent recommendation
he drafted;

c)

submitted that fraudulently-altered Board
findings and recommendation to the Florida
Supreme Court for review; and

d)

misrepresented to the Florida Supreme
Court in an appellate answer brief that the
Board had recommended Plaintiff Castro’s
permanent exclusion from The Florida Bar,
and then advocated for approval of that
fraudulently-altered permanent denial recommendation.

App.35a
13. In October 2013, the Florida Supreme Court
refused to address Plaintiff Castro’s motion to vacate
on the merits by dismissing it as “unauthorized”.
14. Plaintiff Castro brings this action against a)
the Defendant Justices in their official capacities
seeking prospective equitable and declarative relief
to halt the continuing federal constitutional violations
committed by Defendant Pobjecky by vacating the
fraudulently-procured Florida Supreme Court judgment
permanently denying Plaintiff Castro admission to
The Florida Bar which Defendant Justices will
unlawfully continue to enforce unless relief is granted,
and b) Defendant Pobjecky in his individual capacity
seeking compensatory and punitive damages for
violating Plaintiff Castro’s federal constitutional rights.
15. Plaintiff Castro also seeks a de novo review
of his application for readmission to The Florida Bar
untainted by the misconduct committed by Defendant
Pobjecky.
16. Based upon the Florida Supreme Court’s 1998
ten-year disbarment order, the Bar Admission rules
Plaintiff Castro relied upon to apply for readmission
and post-misconduct rehabilitation Plaintiff Castro
established at the formal hearing by clear and
convincing evidence, principles of fundamental fairness
not only preclude Plaintiff Castro’s permanent denial
from the practice of law in Florida based solely on the
identical misconduct upon which the Florida Supreme
Court approved the earlier ten-year disbarment but
also compel his readmission to The Florida Bar.

App.36a
GENERAL ALLEGATIONS
17. Plaintiff Castro is a United States citizen
residing in Miami-Dade County, Florida.
18. The Florida Supreme Court is a public entity
duly organized and existing pursuant to Article V of
the Florida Constitution. It has “exclusive jurisdiction
to regulate the admission of persons to the practice of
law and the discipline of persons admitted” under
Article V, Section 15, of the Florida Constitution. The
Florida Supreme Court is located in Tallahassee,
Florida.
19. The Defendant Justices are United States
citizens, who at all times relevant to the allegations
contained in this complaint, were and are state officers,
i.e., Justices of the Florida Supreme Court, located in
Tallahassee, Florida, and acted and act within the
course and scope of such state government employment
under color of law. While the Defendant Justices perform their adjudicatory official duties in the Northern
District of Florida, they perform other official duties in
every federal district in Florida, including the
Southern District of Florida. By virtue of their state
offices, the Defendant Justices have sole responsibility for enforcing the fraudulently-procured judgment
permanently denying Plaintiff Castro admission to
The Florida Bar based on the unconstitutional acts and
conduct complained of herein. Accordingly, the Defendant Justices are sued in their official capacities in
connection with their present and prospective unlawful enforcement of that judgment, which violates, and
will continue to violate, Plaintiff Castro’s federal civil
rights.

App.37a
20. The Florida Bar is a public agency within
the judicial branch of government established and
regulated under the authority of the Florida Supreme
Court pursuant to Article V, Section 15, of the Florida
Constitution. It was created by the Florida Supreme
Court to enforce the professional responsibilities of
attorneys, and the procedures for implementing these
duties are set forth in the Rules Regulating the Florida
Bar. The primary responsibility of the Florida Bar is
to investigate complaints against members of the Bar
and make recommendations to the Florida Supreme
Court regarding appropriate disciplinary actions.
21. The Board is a public agency within the
judicial branch of government established and regulated
under the authority of the Florida Supreme Court
pursuant to Article V, Section 15, of the Florida Constitution and Rule 1-12 of the Rules Of The Supreme
Court Relating To Admissions To The Bar. The
Board investigates the character and fitness of applicants to The Florida Bar and recommends the admission of every applicant to the Florida Supreme Court
who has complied with all the requirements of the
applicable rules, who has attained passing scores on
the examination, and who has demonstrated the
requisite character and fitness for admission.
22. Defendant Pobjecky is a United States citizen
residing in West Palm Beach, Florida, located in the
Southern District of Florida, who at all times relevant
to the allegations contained in this complaint, served
as the General Counsel for the Florida Board of Bar
Examiners and acted within the course and scope of
such state government employment under color of law.
Defendant Pobjecky retired from his position with
the Board on May 31, 2012. He is sued in his individual

App.38a
capacity for compensatory and punitive damages for
acts which violated, and continue to violate, Plaintiff
Castro’s federal civil rights.
23. Michele A. Gavagni (“Gavagni”) is a United
States citizen residing in Tallahassee, Florida, that
at all times relevant to the allegations contained in
this complaint was and is currently employed by the
Florida Board of Bar Examiners as its Executive
Director and acted and acts within the course and
scope of such state government employment under color
of law.
24. Plaintiff Castro does not herein seek any
damages award against any Defendant which would be
paid from the State of Florida public treasury, directly
or indirectly.
25. Since the Florida Supreme Court refused to
address the merits of Plaintiff Castro’s claims that
the underlying misconduct committed by Defendant
Pobjecky violated his federal constitutional rights in
the procurement of its judgment permanently denying
Plaintiff Castro admission to The Florida Bar and a
substantial live controversy exists because the unlawful
enforcement of that judgment will occur indefinitely
into the future, this Court has jurisdiction over this
matter pursuant to 28 U.S.C. §§ 1331, 1343(a)(3) and
2201 and 42 U.S.C. § 1983. Plaintiff Castro also invokes
the supplemental jurisdiction of this Court over his
state claim against Defendant Pobjecky for common
law fraud pursuant to 28 U.S.C. § 1367(a) because it
forms part of the same case or controversy.
26. Venue is proper in this district under
subsections (b)(1) and (b)(2) of 28 U.S.C. § 1391 because
all the Defendants live in Florida and Defendant

App.39a
Pobjecky resides in this district, and a substantial
part of the events or omissions giving rise to Plaintiff
Castro’s claims occurred in the Southern District of
Florida.
FACTUAL ALLEGATIONS

Events Preceding Plaintiff Castro’s Application for
Readmission to the Florida Bar
27. Plaintiff Castro was admitted to The Florida
Bar in 1981.
28. In 1992, Plaintiff Castro was criminally
charged in federal court with RICO conspiracy, bribery
and mail fraud in connection with having paid a state
court judge a percentage of the fees he earned from
cases he was appointed to represent indigent criminal
defendants.
29. While the evidence at his trial showed that
no ruling or outcome of any criminal defendant’s case
was compromised or affected, no overbilling occurred
and each appointed defendant received effective representation, Plaintiff Castro did obtain an unfair
financial advantage over other attorneys who could
have been properly appointed.
30. As a result of his convictions for those federal crimes, the Florida Supreme Court suspended Plaintiff Castro from the practice of law effective May 12,
1994.
31. The Florida Bar then charged Plaintiff Castro
in a complaint with having been convicted of those
crimes and violating several Rules Regulating the
Florida Bar.

App.40a
32. The Florida Supreme Court appointed a
Referee (Circuit Court Judge) to conduct these proceedings.
33. While permanent disbarment, precluding
readmission to The Florida Bar, was a possible sanction
under Rule 3-7.10(n)(1) of the Rules Regulating the
Florida Bar, The Florida Bar filed a Petition for
Approval of the Conditional Guilty Plea and Consent
Judgment with the Florida Supreme Court which
provided for disbarment for a period of ten years.
That Court was not required to accept the Referee’s
recommendation, and could have lengthened the
disbarment period or permanently disbarred Plaintiff
Castro.
34. In a judgment dated November 12, 1998, the
Florida Supreme Court approved the recommendations
of the Referee and The Florida Bar that Plaintiff
Castro be disbarred for ten years nunc pro tunc to
the effective date of the 1994 suspension, followed by
an opportunity for him to demonstrate post-disbarment
rehabilitation. In doing so, the Florida Supreme Court
adopted the Referee’s finding that Plaintiff Castro’s
“plea and The Florida Bar’s recommendation as to the
terms of discipline [were] both fair to [Castro] and in
the public’s best interest.”
35. Inherent in that judgment was a determination that no evidence existed tending to show that
Plaintiff Castro was beyond redemption or could not
be rehabilitated. It thus precluded a subsequent
finding that no amount of rehabilitation would ever
be sufficient to warrant readmitting Plaintiff Castro.

App.41a

Plaintiff Castro’s Application for Readmission to the
Florida Bar and Proceedings before the Florida
Board of Bar Examiners
36. Under Rule 3-5.1(f) of the Rules Regulating
the Florida Bar, “[a] former member who has not been
permanently disbarred may only be readmitted again
upon full compliance with the rules and regulations
governing admissions to the bar.”
37. Having relied on the Florida Supreme Court’s
1998 judgment and the rules which allowed for readmission upon a showing of rehabilitation by clear and
convincing evidence and successful completion of the
bar examination, Plaintiff Castro applied to the
Board for readmission to The Florida Bar, paid the
$5,100 application fee and passed the relevant bar
examinations in 2007.
38. After Plaintiff Castro filed his application,
the Board filed Specifications against him, based on
his previous disbarment and its underlying conduct.
39. Plaintiff Castro admitted both the disbarment
and the underlying misconduct and pleaded rehabilitation as an affirmative defense.
40. The Board held a formal hearing in Coral
Gables, Florida in July 2010. Gavagni was present
during that hearing.
41. Plaintiff Castro and his counsel presented
evidence of rehabilitation at the hearing, documenting
over 13,000 hours of community service and the supporting testimony or letters from 32 current or former
judges (including the Chief Judge for the United States
District Court for the Southern District of Florida

App.42a
and a former Florida Supreme Court Justice) and
over 100 attorneys.
42. The Board did not present any evidence
contesting or objecting to Plaintiff Castro’s evidence
of rehabilitation or current moral character from any
source or which adversely reflected upon how Plaintiff
Castro had conducted himself for the previous 19 years.
43. Based on the evidence presented at the 2010
formal hearing, the 1998 ten-year judgment, and the
rules in effect at the time of his application for readmission and formal hearing, Plaintiff Castro satisfied
all the standards to warrant his readmission to The
Florida Bar.
44. In closing argument, then Associate Board
Counsel Robert G. Blythe instructed the hearing panel
that Bar Admission rules did not allow the Board to
recommend a lifetime ban. He told the Board the
longest period they could deny Plaintiff Castro’s
application under the Rules before he could reapply
was five years, but that he was only asking for 2
years because, while conceding that Plaintiff Castro
had performed a lot of community service, he could
always do more.
45. Counsel for the Board also advised the panel
that they had “an awful lot of balancing to do to
determine whether what the applicant ha[d] done [wa]s
sufficient in light of the seriousness of the underlying
misconduct.”
46. At the conclusion of the formal hearing,
Board panel members convened for closed deliberations
to determine whether Plaintiff Castro had engaged
in sufficient rehabilitation to warrant his admission

App.43a
despite his previous disbarment and the related
underlying conduct.
47. On July 22, 2010, Gavagni executed a Notice
of Board Action letter received via certified US mail
by Plaintiff Castro’s counsel in Plantation, Florida
informing Plaintiff Castro that the Board had decided
that he had “not established the character and fitness
standards required” and “that the 2-year denial period
would be applicable before an application to establish
rehabilitation . . . w[ould] be accepted.” See copy of
letter, attached hereto as Exhibit A.
48. That letter also advised Plaintiff Castro that
the Notice of Board Action was “intended to advise
[him] of the board’s action, but [was] not formal
notice of the ‘board’s recommendation’ under rules 330 or 3-40.1 for purposes of calculating the 60-day
period for filing either a petition for board reconsideration or a petition for Supreme Court review.”
49. Uncertain whether he would accept the
Board’s decision and wait two years to reapply or
appeal the Board’s two-year denial decision to the
Florida Supreme Court, Plaintiff Castro ordered a
copy of the formal hearing transcript from the Board.
50. On August 26, 2010, Plaintiff Castro’s counsel
received a copy of the formal hearing transcripts
from the Board.
51. Upon reviewing that copy, Plaintiff Castro
and his counsel found what they believed were many
substantive and typographical errors. Since he had
already paid for the transcripts, Plaintiff Castro
contacted the court reporting firm that transcribed
the proceedings and requested a compact disc (“CD”)
of the transcripts of the formal hearing.

App.44a
52. In early September 2010, Plaintiff Castro
received a CD from the court reporting firm via United
States mail which purportedly contained the transcripts
of the July 15, 2010 formal hearing before the Board’s
panel.
53. However, since Plaintiff Castro and his
counsel had already begun making corrections from
the copy of the transcripts provided by the Board, he
did not check to see whether the CD did, in fact, contain the hearing transcripts, and placed it in an
accordion file with copies of other documents presented
at the formal hearing.
54. On October 19, 2010, Gavagni executed the
Board’s Findings of Fact, Conclusions of Law, and
Recommendation. See copy of Board’s Findings of Fact,
Conclusions of Law, and Recommendation, attached
hereto as Exhibit B.
55. In a cover letter, Gavagni wrote that “[t]he
final recommendation of the board as outlined in the
findings differs from that referenced in the July 22,
2010, Notice of Board Action. The findings and recommendation are controlling.” See copy of cover
letter, attached hereto as Exhibit C.
56. Both the Board’s Findings of Fact, Conclusions
of Law, and Recommendation and Gavagni’s cover letter
were received via certified US mail by Plaintiff Castro’s
counsel in Plantation, Florida.
57. The Findings of Fact, Conclusions of Law
and Recommendation stated that the “board conclude[d]
that no amount of rehabilitation w[ould] ever suffice
to allow the applicant’s readmission to the Florida
legal profession. . . . [based on] the egregious nature
of the applicant’s prior misconduct that eventually

App.45a
resulted in his criminal conviction, incarceration, and
disbarment.”
58. This different recommendation exceeded not
only the maximum five-year disqualification period
for reapplication that the Board could recommend under
Bar Admission rules but also the two-year disqualification recommendation that the Board originally
rendered.
59. Plaintiff Castro’s counsel, with no reason to
believe that anything unlawful or irregular had
occurred, surmised that the difference between the
findings/decision contained in the Notice of Action
and the Findings of Fact, Conclusions of Law, and
Recommendation was attributable to a reporting error
by the Board’s staff, concluding that they must have
initially notified Plaintiff Castro incorrectly that his
application for admission was denied for two years,
when in fact, the Board panel’s decision had actually
recommended permanent denial.1

1 On December 16, 2010, two months after the Board’s action
here, the Florida Supreme Court amended Bar Admission Rule
3-23.6(d), adding, for the first time, the possibility of permanent
preclusion. See In re Amendments to the Rules of the Supreme
Court Relating to Admissions to the Bar, 52 So.3d 652, 654-55,
659 (Fla. 2010), which added this sentence to the end of Rule 323.6(d): “In a case involving extremely grievous misconduct, the
board has the discretion to recommend that the applicant or
registrant be permanently prohibited from applying or reapplying for admission to the Florida Bar.” However, that
provision did not apply when Plaintiff Castro was disbarred by
the Florida Supreme Court; it did not apply when he applied for
readmission following the passage of his 10-year waiting period;
it did not apply when he gathered and submitted the evidence
supporting his application; and it did not apply when he had his

App.46a

The Florida Supreme Court’s Decision
60. The Board’s Findings of Fact, Conclusions of
Law and Recommendation left Plaintiff Castro with
no alternative but to appeal the permanent denial recommendation to the Florida Supreme Court, which
he did on December 14, 2010.
61. In the Board’s Answer Brief filed on April
25, 2011, Defendant Pobjecky entitled his argument
“The Board Properly Recommended Castro’s Permanent
Exclusion” and repeatedly represented to the Florida
Supreme Court that the Board had recommended that
Plaintiff Castro’s application for admission to The
Florida Bar be permanently denied. Defendant Pobjecky
argued “that [Castro’s] egregious conduct fully
justifie[d] the board’s recommendation that he be
permanently excluded from readmission to The Florida
Bar.” He also stated that “[i]n its recommendation in
the pending case, the board got it right. The board
urges this Court to affirm the board’s recommendation
and to exclude [Petitioner] from seeking readmission
to The Florida Bar.” In closing, Defendant Pobjecky
urged that “Court to affirm the board’s recommendation
that Castro not be admitted to The Florida Bar and
that Castro be permanently excluded from reapplying.”
62. On February 9, 2012, the Florida Supreme
Court approved the Board’s recommendation that
Plaintiff Castro be permanently denied admission to
The Florida Bar. Florida Board of Bar Examiners re
Castro, 87 So.3d 699 (Fla. 2012). It agreed with the
Board’s “determin[ation] that no amount of rehabilitation would ever be sufficient to warrant readmithearing in July 2010 or when the Board issued its findings in
October 2010.

App.47a
ting Castro to the Bar” and “conclusion that no
demonstration of rehabilitation would ever suffice to
allow Castro’s readmission to the legal profession”.
63. Although the Florida Supreme Court found
that Plaintiff Castro had “engaged in thousands of
hours of community service, benefiting both his church
and the legal community as a whole, in an effort to
show his rehabilitation”, it concluded that notwithstanding Plaintiff Castro’s “admirable” commitment
to community service and “substantial” evidence of
rehabilitation, “no demonstration of rehabilitation
would ever suffice to allow Castro’s readmission to
the legal profession.” Id. at 701-2.
64. Defendant Justice Pariente’s concurring
opinion summarized Plaintiff Castro’s evidence of
rehabilitation:
The witnesses who testified at [Castro]’s
hearing included many leaders in the legal
and judicial community . . . [who] described
[Castro] as a changed person and recommended his readmission without hesitancy.
[* * *]
The evidence established that [Castro] logged
over 13,000 hours of community service
during the past eighteen years—equivalent
to an impressive 700 hours of service per
year. He has volunteered for the Guardian
ad Litem (GAL) program, where he has
been described as a “wonderful asset.” The
Senior Staff Attorney of the criminal court’s
GAL program recounted several different
cases on which [Castro] served. She believed
that [Castro]’s efforts in one GAL case saved

App.48a
a child’s life and further described him as a
“relentless advocate” and “meticulous.”
[Castro] is also a licensed foster-care parent,
and he and his wife later adopted each of
the three children they had fostered. The
judge who approved the adoptions described
how she “grew to admire and respect Willie”
and had “no doubt that he would be a very
positive member of the Bar.” [Castro] has
led CLE seminars in which he has taken
“accountability for what he has done.” One
witness who previously worked with [Castro]
in organizing a seminar involving ethics and
the law stated that during the time she has
known him, [Castro] made her “want to be a
better lawyer.” Another witness testified as
to his service to the community, and especially to children, describing him as a “person
that is just doing everything that he can to
be able to give to people, to give of himself,
of his time, of his talent, and to really make
a difference in people’s lives.” Further,
[Castro] has organized programs for migrant
children, and one witness testified that
these migrant children “wouldn’t have anything or much if it wasn’t for the efforts that
Willie had done.”
By all accounts, [Castro] has lived an
exemplary life since his criminal charges,
felony convictions, and prison sentence.
Based on what I perceive to be overwhelming
evidence of his rehabilitation, I would state
that [Castro] has demonstrated all seven
elements of rehabilitation required by Rule

App.49a
3–13 of the Bar Admission Rules for admission
when the applicant has previously engaged
in disqualifying conduct.

Id. at 702-3. Justice Pariente recognized in her concurring opinion that the majority’s decision effectively
“change[d] Castro’s sanction of a ten-year disbarment
imposed in 1994 to one of a permanent disbarment.”
Id. at 703.2
65. Plaintiff Castro filed a motion for rehearing,
which was denied by the Florida Supreme Court on
April 26, 2012.

Petition for a Writ of Certiorari
66. Plaintiff Castro filed a Petition for Writ of
Certiorari to the Florida Supreme Court at the
United States Supreme Court on July 25, 2012. He
raised the following question for review:
Whether Castro’s substantive due process
rights under the Fourteenth Amendment to
the United States Constitution and principles
of fundamental fairness were violated when
the Florida Supreme Court disregarded its
own final judgment disbarring Castro for
10 years by later permanently denying
his readmission based solely on the same
2 Plaintiff Castro is the only former attorney licensed in Florida
not permanently disbarred for his misconduct who, upon
completion of the ordered disbarment period and reapplying for
admission to The Florida Bar without having committed any
post-disbarment acts impugning his moral character, has ever
been permanently denied readmission to The Florida Bar by the
Florida Supreme Court based solely upon the identical misconduct underlying his original disbarment.

App.50a
misconduct which formed the basis of the
original disbarment judgment and without
considering any evidence of rehabilitation.
67. The United States Supreme Court denied
certiorari on October 1, 2012 (docket number 12-124).
See Castro v. Florida Board of Bar Examiners, 133 S.
Ct. 339 (2012)(mem.).

Plaintiff Castro’s Motion to Vacate Judgment Based
on Fraud Committed by the Florida Board of Bar
Examiners
68. On October 3, 2012 (two days after the United
States Supreme Court denied Plaintiff Castro’s petition
for writ of certiorari), Plaintiff Castro reviewed the
boxes and files which contained his application to
The Florida Bar, the formal hearing, and his appeals
to the Florida Supreme Court and the United States
Supreme Court, in order to decide which documents
to retain or discard.
69. While doing so, Plaintiff Castro found the
CD that the court reporting firm had mailed him which
purportedly contained the transcripts of the formal
hearing.
70. Upon inserting the CD into the computer,
Plaintiff Castro noticed that not only did it contain
the two transcripts of the formal hearing but also a
transcript of the Board panel’s confidential postdeliberations report of its collective recommendation.3
3 Prior to 1994, the Board adopted a policy of having
deliberations of the formal hearing panel transcribed to
augment the information contained on the Findings Worksheet
that is completed by a designated note-taker on the formal
hearing panel.

App.51a
Plaintiff Castro had no reason to know that the CD
contained this confidential transcript. See copy of
Board panel transcript, attached hereto as Exhibit D.
71. As announced by the panel’s chairperson,
those findings, dated July 15, 2010, at 6:15pm, revealed
that the five-member panel voted shortly after the
formal hearing in Coral Gables, Florida, to deny
Plaintiff Castro admission to The Florida Bar. Three
panelists voted for denial and the two others voted to
admit Plaintiff Castro outright.
72. After their collective decision had been
announced on the record, two panel members in that
transcript alluded to a Florida Supreme Court case
in which a first-time applicant had been permanently
denied admission to The Florida Bar. However, neither
of them nor the third panelist who voted for denial
indicated that either the panel’s or their individual
recommendation was for permanent denial.
73. To the contrary, all panel members agreed
upon a finding of a two-year disqualification period
(the same denial period recommended by Board counsel
during closing argument), which “is presumed to be
the minimum period of time required before an applicant or registrant may reapply for admission and
establish rehabilitation”. Rule 3-23.6(d) of The Rules

of the Supreme Court Relating to Admissions to the
Bar.
74. Moreover, panelists, even those who voted
for denial, described Plaintiff Castro’s rehabilitation
during deliberations as “massive”, “voluminous” and
“impressive”.

75. Since it was apparent that the panel’s original
two-year denial recommendation had been changed and

App.52a
the permanent denial recommendation contained in the
Board’s Findings of Fact, Conclusions of Law and Recommendation was unsupported by the record and
false, Plaintiff Castro’s counsel, within 5 weeks of
discovering the contents of the CD, filed a sealed, ex
parte motion to vacate the judgment of the Florida
Supreme Court entered on February 9, 2012 (which
approved the Board’s recommendation that Plaintiff
Castro be permanently denied admission to The Florida
Bar).
76. Although neither Plaintiff Castro nor his
counsel knew the identity of the person or persons
involved in changing the panel’s recommendation, the
motion filed with the Florida Supreme Court generally
alleged that the Board, its members, employees
and/or others associated or acting in concert with the
Board, committed fraud, misrepresentation or other
misconduct by changing, without authority, the formal
hearing panel’s July 15, 2010 unanimous two-year
denial decision (as reflected in its post-hearing deliberations transcript) to a permanent denial recommendation that was incorporated in the Board’s October 19,
2010 Findings of Fact, Conclusions of Law and Recommendation and submitted to the Florida Supreme
Court for review.
77. Plaintiff Castro requested an evidentiary
hearing before an independent entity (other than the
Board) upon the allegations concerning the Board’s
actions, at which evidence and argument could be
received to determine how the initial two-year denial
recommendation was changed and who was involved or
knew about it.
78. As a result of the Board’s actions, Plaintiff
Castro argued that his federal procedural and sub-

App.53a
stantive due process rights to have his readmission
application adjudged fairly and impartially before the
Board and the Florida Supreme Court were violated
when the Board arbitrarily and without notice changed
the findings and recommendation of the formal hearing
panel and issued a “different” Findings of Fact, Conclusions of Law and Recommendation.
79. But for the mailing of the compact disc to
Plaintiff Castro that inadvertently contained the confidential Board transcript which included the panel
chairperson’s post-deliberation announcement that
their collective decision was for denial of Plaintiff
Castro’s application by a three-to-two vote with a
two-year waiting period to reapply, the alleged fraud
would have never been discovered.
80. Plaintiff Castro did not know or have reason
to know that such misconduct had occurred when the
Florida Supreme Court approved the fraudulentlyaltered findings and recommendation and entered its
final judgment permanently denying his admission to
The Florida Bar.

Order to Show Cause
81. On May 6, 2013, the Florida Supreme Court,
indicating that Plaintiff “Castro ha[d] provided no
authority in his motion or any other filing setting
forth the authority upon which this Court can grant
leave to Castro to file a motion to vacate the final disposition of the Court and reopen the case for consideration of new information”, ordered Plaintiff Castro to
show cause why his Verified Motion to Vacate Judgment Based on Fraud, Misrepresentation or Other
Misconduct Committed by the Florida Board of Bar
Examiners “should not be dismissed as unauthorized.”

App.54a

See copy of Order to Show Cause, attached hereto as

Exhibit E.

Plaintiff Castro’s Response to Order to Show Cause
82. On May 22, 2013, Plaintiff Castro filed a
response to the Order to Show Cause.
83. Plaintiff Castro argued that although the
Florida Rules of Appellate Procedure did not contain
a rule allowing a litigant to move to vacate a judgment
or decision issued by an appellate court based on
fraud or other misconduct, the Florida Supreme Court
had the inherent authority and duty to review any
specific allegation of fraud, misrepresentation or
other misconduct committed by a party in the
procurement of a final judgment entered by that Court
in order to protect the rights of the aggrieved party
and further the administration of justice, and if
proven, to vacate that judgment. Plaintiff Castro
pointed out that that Court’s inherent authority to
review a claim that a party procured a judgment of
that Court through fraud, misrepresentation or other
misconduct could also be gleaned from its promulgation
of other procedural rules.

The Board’s Reply
84. In its June 3, 2013 Reply, “[t]he Board acknowledge[d] that [while] the [Florida Supreme] Court
ha[d] general jurisdiction of this matter pursuant to
Article V, Section 15 of the Florida Constitution,” it
argued that “[t]here [was] no specific grant of jurisdiction for the underlying motion to vacate judgment. . . . [or] reason for this case to be reopened”. The
Board opposed any further inquiry of the underlying
allegations by the Florida Supreme Court, attributing

App.55a
what occurred to “some unfortunate miscommunication between the hearing panel members and the
board’s staff” and advocated that the motion to
vacate should be dismissed as unauthorized.
85. In that Reply, Petitioner first learned that
Defendant Pobjecky, then the Board’s General Counsel,
had drafted the Findings of Fact, Conclusions of Law
and Recommendation (although it was Gavagni who
signed it). Specifically, the Board’s Reply represented
that “[a]fter the transcript of the full hearing and the
deliberations were received, the General Counsel at
the time, Thomas Arthur Pobjecky, drafted the Findings
of Fact, Conclusions of Law, and Recommendation.”
According to the Reply, Defendant Pobjecky drafted
the Findings of Fact, Conclusions of Law, and Recommendation because a Board policy precluded “the attorney who represents the Office of General Counsel at
the formal hearing [with having any] involvement
with preparing the Findings.”4
86. With its Reply, the Board filed an Appendix
containing select previously-undisclosed confidential
Board documents. But, as the evidence the Board
actually disclosed in its Appendix to its Reply
conclusively proved, there was no miscommunication
between the hearing panel members and Board staff,
as the “Findings Worksheet”5 which was completed and
4 Since at least 1959, it has been the Board’s practice to have
one of its attorneys prepare the findings of fact in Bar applicant
matters. In 2005, Defendant Pobjecky determined that these
Findings would be drafted by an attorney on the Board’s staff
other than the attorney who presented the case at the formal
hearing.
5 A formal hearing panel’s Findings Worksheet is akin to a
jury’s verdict form that represents the decision of the Board’s

App.56a
provided immediately after the conclusion of the panel’s
deliberations to Board staff in Coral Gables, Florida,
contained the panel’s denial recommendation/findings
for 2 years, not permanent exclusion. See copy of
Findings Worksheet, attached hereto as Exhibit F.
87. In the Board’s Reply, Plaintiff Castro also
first learned that Gavagni had sent a letter dated
September 15, 2010 to two of the five hearing panelists—the panel’s presiding officer and note-taker (who
recorded the panel’s decision reflected in the Findings Worksheet)—enclosed with a copy of the Findings Worksheet and the General Counsel’s draft of
the Findings of Fact and Conclusions of Law, pursuant
to a purported Board policy requiring their approval.6
See copy of Gavagni’s letter, attached hereto as
Exhibit G.
88. In that letter, which Defendant Pobjecky
helped prepare but did not sign, Gavagni stated:
Enclosed is a draft of Findings of Fact and
Conclusions of Law. Also enclosed is a copy
of the notes of the panel’s findings as recorded
by Ms. Doyle. It is the board’s policy that the
presiding officer of the formal hearing panel
and the board member assigned note taking
responsibility review and approve the Findings prior to mailing.
panel, as trier of the facts, based on its review and weighing of
the evidence presented and argument of counsel at the formal
hearing.
6 From at least 1994 through 2010, the Board’s policy was to
have the drafted findings of fact reviewed by the presiding officer
and note-taker from the formal hearing panel for approval.

App.57a
The findings Recommendation would normally
state the length of the disqualification
period when there is a recommendation of
denial (e.g. two years as checked on the
findings worksheet in this case). In this case
and as stated in the Conclusions of Law, the
panel majority decided that no amount of
rehabilitation would be sufficient for the
applicant to overcome his past egregious
conduct. Thus, the Recommendation does
not set forth a specific period of disqualification. If you disagree with this approach,
please state what action you wish to take.
We will forward the Findings as drafted to
the applicant after September 27, 2010, if
you do not advise any changes be made
before that date.
89. According to the Board’s Reply, that letter
“specifically highlighted the inconsistency between
the Findings Worksheet and the draft Findings” and
that “[t]he drafter of the Findings did everything he
could to ensure the Findings accurately reflected the
panel’s decision.”
90. Defendant Pobjecky’s duties in drafting the
Findings of Fact, Conclusions of Law and Recommendation was simply to summarize the evidence
presented at the hearing and report the Board hearing
panel’s admission recommendation. It was not to serve
as an advocate for any particular recommendation or
be critical of or alter the hearing panel’s recommendation.
91. Defendant Pobjecky interjected himself in
this process as both an advocate and de facto sixth

App.58a
panelist when he omitted to include the two-year denial
recommendation reflected in both the Findings
Worksheet and deliberations transcript and drafted a
Conclusions of Law which misrepresented what the
formal hearing panel had concluded, knowing that
Gavagni would communicate ex parte with the panel
chair and notetaker and provide them with his
fabricated Conclusions of Law for approval.
92. Defendant Pobjecky did this knowing that it
would never be discovered by anyone (including Plaintiff
Castro)–except the Executive Director of the Florida
Board of Bar Examiners–due to the confidential nature
of internal Board actions.

Plaintiff Castro’s Sur-Reply
93. In his June 6, 2013 Sur-Reply, Plaintiff Castro
argued that Defendant Pobjecky falsified the panel’s
findings by substituting their collective judgment in
favor of a conclusion and recommendation that was
never agreed upon by them. He pointed out that the
available evidence showed that no communication
breakdown ever existed, as Defendant Pobjecky:
a)

knew that the Board had issued a Notice of
Board Action letter on July 22, 2010
informing Plaintiff Castro that they had
decided that he had “not established the
character and fitness standards required”
and “that the 2-year denial period would be
applicable before an application to establish
rehabilitation . . . w[ould] be accepted”;

b)

possessed the transcript of Plaintiff Castro’s
formal hearing;

App.59a
c)

knew that the “Findings Worksheet” reflected
the panel’s two-year denial recommendation;

d)

knew that the panel Chair had announced
the panel’s decision (as reflected in a transcript) after the confidential deliberations as “a
three-two vote to deny a recommendation for
readmission to the Supreme Court. The
findings-for two years”; and

e)

knew that the version of Rule 3-23.6(d) then
in effect prohibited the Board from recommending any denial period greater than 5
years.

94. No Bar Admission rule or other legal authority
permitted any Board member, employee or agent
(including the Board’s Executive Director or General
Counsel) to 1) unilaterally reject, modify, make new
findings, or substitute the formal hearing panel’s admission decision after the panel deliberates and
issues its findings and recommendation, or 2) compel
or request the formal hearing panel to reconvene
collectively or otherwise communicate with each other
to renew deliberations or reconsider their findings
and recommendations subsequent to their original
deliberations or issuance of their original decision.
95. In her letter to the panel’s presiding officer
and note-taker, Gavagni went beyond simply asking
them to clarify some alleged inconsistency between
the Findings Worksheet and the Findings recommendation. Instead of allowing the two panelists to
decide whether there was a discrepancy and if so,
what the panel’s collective recommendation was,
Gavagni, without notice to Plaintiff Castro’s counsel
or seeking leave of the Florida Supreme Court, incor-

App.60a
rectly informed them that “the panel majority [had]
decided that no amount of rehabilitation would be
sufficient for the applicant to overcome his past
egregious conduct” and forwarded the falsified recommendation Defendant Pobjecky drafted for their
approval.
96. Moreover, Gavagni failed to provide those
two panelists with the post-deliberations transcript
of the formal hearing panel’s findings so they could
see for themselves that the panel majority never agreed
upon that conclusion or recommended permanent
denial.
97. By calling upon two of the five panelists to
provide a recommendation in conformance with the
false Conclusions of Law Defendant Pobjecky drafted,
Gavagni’s letter not only interfered with the panel’s
original documented two-year denial recommendation
but also prompted the two panelists to effectively redeliberate (without the necessary five-member panel
quorum). Relying upon the presumed correctness of
the Conclusions of Law drafted by Defendant Pobjecky
and Gavagni’s letter corroborating it, the two panelists
ostensibly approved the fabricated permanent denial
recommendation.
98. Clearly uncomfortable with the Board’s
request to provide a new recommendation consistent
with the Conclusions of Law that Board counsel drafted
that were false, the panel’s note-taker, in response to
an email sent to her by Gavagni, expressed her “hope
that the report [would] indicate[] that the findings
were not unanimous but reached in a 3-2 vote for
witholding [sic] admission”, not permanent denial.

App.61a
99. Neither the panel’s two-year disqualification
recommendation nor the actual 3-2 vote for denial
was included in the Board’s Findings of Fact, Conclusions of Law and Recommendation Defendant Pobjecky
drafted and Gavagni executed.

Florida Supreme Court’s Order Dismissing Motion to
Vacate Judgment
100. On October 18, 2013, the Florida Supreme
Court dismissed Plaintiff Castro’s motion to vacate
as “unauthorized”. See copy of Order, attached hereto
as Exhibit H.
101. In so doing, the Florida Supreme Court
refused to even consider, much less reach the merits
of, Plaintiff Castro’s federal claims concerning the
alleged misconduct committed by the General Counsel
of the Florida Board of Bar Examiners.

Petition for a Writ of Certiorari
102. Plaintiff Castro filed a Petition for Writ of
Certiorari to the Florida Supreme Court at the
United States Supreme Court on January 16, 2014. He
raised the following question for review:
Whether the Florida Supreme Court violated
Castro’s procedural and substantive due
process rights under the Fourteenth Amendment to the United States Constitution by
summarily dismissing Castro’s motion to
vacate its judgment permanently denying
him admission to The Florida Bar or, in the
alternative, conduct an evidentiary hearing,
in light of proof that the Florida Board of
Bar Examiners fraudulently changed a

App.62a
hearing panel’s decision.
103. The Court denied certiorari on March 31,
2014 (docket number 13-857). Castro v. Florida Board
of Bar Examiners, 134 S. Ct. 1761 (2014)(mem.).

Other Acts and Declarations Attributable to Defendant Pobjecky
104. In February 2007, an article was published
in The Bar Examiner by Defendant Pobjecky, entitled
Beyond Rehabilitation: Permanent Exclusion from the
Practice of Law. He argued that courts should adopt
a bright-line test to permanently deny applicants
guilty of serious past misconduct from practicing law.
He stated that “[s]uch rules give notice to law schools,
law students, and prospective bar applicants of the
types of behavior that will permanently exclude individuals from the legal profession.” Id. at 16. Defendant Pobjecky did not address whether such rules should
apply to a previously-disbarred attorney who later seeks
readmission. Lastly, Defendant Pobjecky concluded
that “most importantly, the adoption of a per se approach
supports the notion that the general integrity of the
judicial system is paramount to the individual claim
of rehabilitation by a particular bar applicant.” Id.
105. On December 10, 2008, Defendant Pobjecky,
on behalf of the Board, filed a petition for approval of
certain amendments to The Rules of the Supreme Court
Relating to Admissions to the Bar in case number SC082296. With respect to Rule 3-23.6(d), the Board recommended that it “be amended to clarify the rule.
The proposed amendment would also authorize the
board to recommend permanent denial for ‘extremely
grievous misconduct.’”

App.63a
106. Defendant Pobjecky intentionally omitted
including the true two-year denial recommendation
in the Findings of Fact, Conclusions of Law and Recommendation he drafted and substituted the
fabricated language denoting permanent denial because
he did not want to mislead Plaintiff Castro into thinking
that his past rehabilitation, including the over 13,000
hours of community service hours he had performed,
was insufficient and that he could later establish
rehabilitation by performing additional community
service, and then be admitted to The Florida Bar.
However, nowhere did the majority of the panel
members agree or make any finding that Plaintiff
Castro’s denial was permanent or that he could never
show sufficient rehabilitation to warrant his readmission.
107. Had he reported the formal hearing panel’s
actual two-year denial recommendation, Defendant
Pobjecky believes that he would have then falsified
the findings because the evidence of rehabilitation
Plaintiff Castro presented at the formal hearing was
clearly sufficient to gain admission after engaging in
disqualifying conduct. Defendant Pobjecky changed
the panel’s recommendation because he felt he knew
what was right and he did it.
108. After having served as General Counsel for
the Board since 1985, Defendant Pobjecky retired on
May 31, 2012–less than 4 months after the Florida
Supreme Court affirmed the Board’s permanent denial
recommendation.

App.64a

Plaintiff Castro’s Present Status with the Florida Bar
109. Plaintiff Castro remains permanently
ineligible to reapply or be readmitted to The Florida
Bar unless relief is granted.

Plaintiff Castro Seeks Prospective Injunctive Relief
Against the Defendant Justices and Damages Award
Against Defendant Pobjecky
101. A damages award against Defendant Pobjecky
alone would constitute an inadequate legal remedy.
While the harm caused by Defendant Pobjecky can be
reduced to a monetary amount, it would be insufficient
to compensate Plaintiff Castro for all the harm he
continues to suffer. Unless this Court grants declaratory
and prospective injunctive relief against the Defendant
Justices, Plaintiff Castro will indefinitely continue to
be irreparably harmed by the unlawful enforcement
of the judgment issued by the Florida Supreme Court
permanently denying him admission to The Florida Bar
which was fraudulently-procured by Defendant
Pobjecky.
COUNT I
Violation of Plaintiff Castro’s Federal Substantive
Due Process Rights And Liberty Interest To Pursue
His Chosen Profession (28 U.S.C. § 2201 and
42 U.S.C. § 1983) (All Defendants)
111. Plaintiff Castro incorporates by reference
paragraphs 1 through 110.
112. In this Count, Plaintiff Castro seeks
declaratory and prospective injunctive relief against
the Defendant Justices in their official capacities and
compensatory and punitive damages against Defendant

App.65a
Pobjecky in his individual capacity pursuant to 28
U.S.C. § 2201 and 42 U.S.C. § 1983.
113. Under the Due Process Clause of the
Fourteenth Amendment to the United States Constitution, a person has a liberty interest to pursue his
chosen occupation free from arbitrary and unreasonable State governmental interference.
114. A State cannot exclude a person from the
practice of law for reasons or in a manner that
contravene the Due Process Clause of the Fourteenth
Amendment to the United States Constitution.
115. Based on the Findings Worksheet and the
transcript of the panel’s announced decision after
deliberations, Defendant Pobjecky knew that the formal
hearing panel had decided by a 3-2 vote to deny Plaintiff
Castro’s application for readmission to The Florida
Bar, with a two-year waiting period to reapply.
116. Defendant Pobjecky knew that the version
of Florida Bar Admission Rule 3-23.6(d) then in effect
prohibited the Board from recommending any denial
period greater than 5 years.
117. Defendant Pobjecky committed egregious
misconduct in connection with Plaintiff Castro’s
application for readmission to The Florida Bar by:
a)

arbitrarily and capriciously drafting a Findings of Fact, Conclusions of Law and Recommendation which changed the Board
hearing panel’s decision from a two-year
denial recommendation to permanent denial;

b)

helping Gavagni draft an ex parte letter to
two of the five Board panel members two
months after the panel had recommended

App.66a
denial of Plaintiff Castro’s application with
a two-year waiting period to reapply which
requested they consider approving a
permanent denial recommendation based on
the misrepresentation that “the panel
majority decided that no amount of rehabilitation would be sufficient for the applicant
to overcome his past egregious conduct”;
c)

submitting the fraudulently-altered Board
findings and recommendation Defendant
Pobjecky drafted to the Florida Supreme
Court for review; and

d)

misrepresenting to the Florida Supreme
Court in an appellate answer brief that the
Board had recommended Plaintiff Castro’s
permanent exclusion from The Florida Bar
and then advocating for approval of that
fraudulently-altered permanent denial recommendation.

118. Defendant Pobjecky knew or should have
known that his conduct violated Plaintiff Castro’s
clearly established federally-protected constitutional
substantive due process rights and liberty interest to
pursue his chosen profession under the Fourteenth
Amendment to the United States Constitution of which
a reasonable person would have known.
119. Defendant Pobjecky’s wrongful acts were not
undertaken pursuant to the performance of his official
duties or within the scope of his authority relating to
the examination, character and fitness qualification,
and licensing of persons seeking to be admitted to
the practice of law.

App.67a
120. As a result of the misconduct committed by
Defendant Pobjecky, Plaintiff Castro will forever be
completely deprived of his liberty interest to pursue
his chosen profession in Florida under the Fourteenth
Amendment to the United States Constitution.
121. The Defendant Justices presently and will
prospectively act in violation of the federal Constitution
by unlawfully enforcing the fraudulently-procured
judgment issued by the Florida Supreme Court which
permanently denied Plaintiff Castro admission to The
Florida Bar based on the constitutional violations
committed by Defendant Pobjecky unless relief is
granted.
122. Defendant Pobjecky’s conduct set forth herein
was motivated by an evil motive or intent, or involved
reckless or callous indifference to Plaintiff Castro’s
federally-protected rights.
123. By reason of the above-described acts, Plaintiff
Castro was required to and did retain undersigned
counsel to institute and prosecute the instant civil
action and to render legal assistance to Plaintiff
Castro so that he might vindicate the loss and
impairment of his above-mentioned rights.
COUNT II
Violation of Plaintiff Castro’s Federal Constitutional
Procedural Due Process Rights to Notice and
Opportunity to be Heard (28 U.S.C. § 2201 and
42 U.S.C. § 1983) (All Defendants)
124. Plaintiff Castro incorporates by reference
paragraphs 1-110.

App.68a
125. In this Count, Plaintiff Castro seeks
declaratory and prospective injunctive relief against
the Defendant Justices in their official capacities and
compensatory and punitive damages against Defendant
Pobjecky in his individual capacity pursuant to 28
U.S.C. § 2201 and 42 U.S.C. § 1983.
126. Under the Due Process Clause of the Fourteenth Amendment to the United States Constitution,
a person has a right to notice and an opportunity to
be heard at a meaningful time and in a meaningful
manner.
127. A State cannot completely exclude a person
from practicing law unless the requirements of
procedural due process are met, including notice and
a full and fair hearing in which that person is given
an opportunity to contest the bases of the recommendations against him.
128. Plaintiff Castro was denied procedural due
process that was constitutionally adequate under the
Fourteenth Amendment to the United States Constitution.
129. Plaintiff Castro was entitled to notice and
an opportunity to contest the changing of the Board
panel’s original two-year denial recommendation.
130. Defendant Pobjecky changed the Board hearing panel’s two-year denial recommendation to permanent exclusion from The Florida Bar without
furnishing Plaintiff Castro notice and an opportunity
to challenge the Board’s authority to unilaterally
second-guess and alter the Board panel’s original
recommendation and contest any such change.

App.69a
131. Since Defendant Pobjecky changed the Board
panel’s recommendation without Plaintiff Castro’s
knowledge, Plaintiff Castro was also denied his
procedural due process right to seek direct judicial
review the actions of the Board and Defendant Pobjecky
at the Florida Supreme Court.
132. Defendant Pobjecky knew or should have
known that his conduct violated Plaintiff Castro’s
clearly established federally-protected constitutional
due process rights under the Fourteenth Amendment
to the United States Constitution of which a reasonable
person would have known.
133. Defendant Pobjecky’s wrongful acts were not
undertaken pursuant to the performance of his official
duties or within the scope of his authority relating to
the examination, character and fitness qualification,
and licensing of persons seeking to be admitted to
the practice of law.
134. The Defendant Justices presently and will
prospectively act in violation of the federal Constitution
by unlawfully enforcing the fraudulently-procured
judgment issued by the Florida Supreme Court which
permanently denied Plaintiff Castro admission to The
Florida Bar based on the constitutional violations
committed by Defendant Pobjecky unless relief is
granted.
135. Defendant Pobjecky’s conduct set forth herein
was motivated by an evil motive or intent, or involved
reckless or callous indifference to Plaintiff Castro’s
federally-protected rights.
136. By reason of the above-described acts, Plaintiff
Castro was required to and did retain undersigned
counsel to institute and prosecute the instant civil

App.70a
action and to render legal assistance to Plaintiff
Castro so that he might vindicate the loss and
impairment of his above-mentioned rights.
COUNT III
Violation of Plaintiff Castro’s Federal Constitutional
Procedural Due Process Right to an Impartial and
Disinterested Tribunal (28 U.S.C. § 2201 and
42 U.S.C. § 1983) (All Defendants)
137. Plaintiff Castro incorporates by reference
paragraphs 1-110.
138. In this Count, Plaintiff Castro seeks declaratory and prospective injunctive relief against the
Defendant Justices in their official capacities and
compensatory and punitive damages against Defendant
Pobjecky in his individual capacity pursuant to 28
U.S.C. § 2201 and 42 U.S.C. § 1983.
139. Under the Due Process Clause of the
Fourteenth Amendment to the United States Constitution, a person is entitled to an impartial and
disinterested tribunal.
140. Plaintiff Castro was entitled to an impartial
and disinterested recommendation from the Board
hearing panel free from tampering or external interference from Defendant Pobjecky and Gavagni.
141. Defendant Pobjecky and Gavagni exercised
conflicting executive, prosecutorial and adjudicative
functions in the Board’s processing of Plaintiff
Castro’s application for readmission to The Florida Bar
by initiating, conducting and/or approving ex parte
communications with two hearing panel members
two months after the five-member formal hearing

App.71a
panel had decided to recommend that Plaintiff Castro’s
application be denied with a right to reapply after
two years and which resulted in the Board’s issuance
of a fraudulently-altered permanent denial recommendation to the Florida Supreme Court.
142. Defendant Pobjecky violated Castro’s due
process right to an impartial and disinterested tribunal
under the Fourteenth Amendment to the United States
Constitution through his actions which interfered
with the sanctity of the Board hearing panel’s deliberations by second-guessing and altering its collective
decision.
143. As a result of their actions, Defendant
Pobjecky denied Castro:
a)

his right to representation by counsel;

b)

an opportunity to challenge the authority of
the Board to communicate with Board panelists about their recommendation;

c)

a Board hearing panel’s recommendation
based solely on evidence and argument presented at the hearing; and

d)

a Findings of Fact, Conclusions of Law, and
Recommendation which reflected the unadulterated decision of the Board hearing panel.

144. The Board’s tainted recommendation could
not be constitutionally redeemed by the subsequent
direct review in the Florida Supreme Court.
145. Defendant Pobjecky knew or should have
known that his conduct violated Plaintiff Castro’s
clearly established federally-protected constitutional
rights to an impartial and disinterested tribunal

App.72a
under the Fourteenth Amendment to the United States
Constitution of which a reasonable person would have
known.
146. Defendant Pobjecky’s wrongful acts were not
undertaken pursuant to the performance of his official
duties or within the scope of his authority relating to
the examination, character and fitness qualification,
and licensing of persons seeking to be admitted to
the practice of law.
147. The Defendant Justices presently and will
prospectively act in violation of the federal Constitution
by unlawfully enforcing the fraudulently-procured
judgment issued by the Florida Supreme Court which
permanently denied Plaintiff Castro admission to The
Florida Bar based on the constitutional violations
committed by Defendant Pobjecky unless relief is
granted.
148. Defendant Pobjecky’s conduct set forth herein
was motivated by an evil motive or intent, or involved
reckless or callous indifference to Plaintiff Castro’s
federally-protected rights.
149. By reason of the above-described acts, Plaintiff
Castro was required to and did retain undersigned
counsel to institute and prosecute the instant civil
action and to render legal assistance to Plaintiff
Castro so that he might vindicate the loss and
impairment of his above-mentioned rights.

App.73a
COUNT IV
Violation of Plaintiff Castro’s Federal Constitutional
Right of Access to Courts (28 U.S.C. § 2201 and
42 U.S.C. § 1983) (All Defendants)
150. Plaintiff Castro incorporates by reference
paragraphs 1-110.
151. In this Count, Plaintiff Castro seeks declaratory and prospective injunctive relief against the
Defendant Justices in their official capacities and
compensatory and punitive damages against Defendant
Pobjecky in his individual capacity pursuant to 28
U.S.C. § 2201 and 42 U.S.C. § 1983.
152. Access to the courts is a federal constitutional
right, grounded in the First Amendment, the Article
IV Privileges and Immunities Clause, the Fifth
Amendment, and the Fourteenth Amendment.
153. A right of court access is constitutionally
impeded where a state agent intentionally conceals,
misrepresents or alters information which renders a
person’s right to seek redress in an underlying action
inadequate, ineffective, or meaningless.
154. Defendant Pobjecky intentionally created
and submitted a fraudulently-altered Board panel
findings and recommendation to the Florida Supreme
Court for review, concealing from that Court and
Plaintiff Castro the true Board panel findings and recommendation, and then arguing for approval of his
fabricated permanent denial recommendation in proceedings before the Florida Supreme Court knowing it
was false.

App.74a
155. Plaintiff Castro was entitled to have the
Florida Supreme Court to directly review the Board
hearing panel’s two-year denial recommendation.
However, by changing the record that was supposed
to be reviewed by the Florida Supreme Court, Defendant Pobjecky deliberately and maliciously interfered
with Plaintiff Castro’s right to appeal the formal
hearing panel’s actual two-year disqualification recommendation to the Florida Supreme Court or his
option to wait the recommended two-year disqualification period to reapply and forced Plaintiff Castro to
appeal the fraudulent Board findings recommending
permanent denial.
156. Thus, the issue on appeal to that Court was
not whether Plaintiff Castro had presented sufficient
evidence of his rehabilitation to be readmitted (in
conformance with his 1998 ten-year disbarment judgment and the version of Rule 323.6(d) in effect at the
time of Petitioner’s hearing) but whether the latter
judgment and almost over 20 years of rehabilitative
efforts could be legally and equitably ignored to deny
him admission permanently.
157. As a result of the misconduct committed by
Defendant Pobjecky, Plaintiff Castro’s right of access
to the Florida Supreme Court was not adequate,
effective, or meaningful and he is permanently denied
admission to The Florida Bar.
158. Defendant Pobjecky knew or should have
known that his conduct violated Plaintiff Castro’s
clearly established federally-protected constitutional
right of access to the courts under the First Amendment, the Article IV Privileges and Immunities Clause,
the Fifth Amendment, and the Fourteenth Amend-

App.75a
ment to the United States Constitution of which a
reasonable person would have known.
159. Defendant Pobjecky’s wrongful acts were not
undertaken pursuant to the performance of his official
duties or within the scope of his authority relating to
the examination, character and fitness qualification,
and licensing of persons seeking to be admitted to
the practice of law.
160. The Defendant Justices presently and will prospectively act in violation of the federal Constitution by
unlawfully enforcing the fraudulently-procured judgment issued by the Florida Supreme Court which
permanently denied Plaintiff Castro admission to The
Florida Bar based on the constitutional violations
committed by Defendant Pobjecky unless relief is
granted.
161. Defendant Pobjecky’s conduct set forth herein
was motivated by an evil motive or intent, or involved
reckless or callous indifference to Plaintiff Castro’s
federally-protected rights.
162. By reason of the above-described acts, Plaintiff
Castro was required to and did retain undersigned
counsel to institute and prosecute the instant civil
action and to render legal assistance to Plaintiff
Castro so that he might vindicate the loss and
impairment of his above-mentioned rights.

App.76a
COUNT V
Common Law Fraud under Florida Law
Compensatory and Punitive Damages
(Defendant Pobjecky)
163. Plaintiff Castro incorporates by reference
paragraphs 1-110.
164. This is an action for common law fraud under
Florida law.
165. In this Count, Plaintiff Castro seeks compensatory and punitive damages against Defendant
Pobjecky in his individual capacity.
166. Based on the Findings Worksheet and the
transcript of the panel’s announced decision after
deliberations, Defendant Pobjecky knew that the formal
hearing panel had decided by a 3-2 vote to deny Plaintiff
Castro’s application for readmission to The Florida
Bar, with a two-year waiting period to reapply.
167. Defendant Pobjecky knew that the version
of Florida Bar Admission Rule 3-23.6(d) then in effect
prohibited the Board from recommending any denial
period greater than 5 years.
168. Nonetheless, Defendant Pobjecky drafted a
Conclusions of Law which stated that the “board
conclude[d] that no amount of rehabilitation w[ould]
ever suffice to allow the applicant’s readmission to
the Florida legal profession. . . . [based on] the
egregious nature of the applicant’s prior misconduct
that eventually resulted in his criminal conviction,
incarceration, and disbarment”, knowing at that time
that what he wrote was false.

App.77a
169. Defendant Pobjecky knowingly made that
false statement in the Conclusions of Law he drafted
for the purpose of inducing the hearing panel’s presiding
officer and note-taker to act in reliance thereon and
approve the fabricated permanent denial recommendation.
170. Defendant Pobjecky helped Gavagni prepare
an ex parte letter she sent to those two panelists
requesting them to approve the Conclusions of Law
Defendant Pobjecky drafted, representing that “the
panel majority decided that no amount of rehabilitation
would be sufficient for the applicant to overcome his
past egregious conduct”.
171. That statement was made for the purpose of
inducing the hearing panel’s presiding officer and
note-taker to act in reliance thereon and approve the
fabricated permanent denial recommendation.
172. Relying upon the presumed correctness of
the Conclusions of Law drafted by Defendant Pobjecky
and Gavagni’s letter corroborating it, the two panelists
ostensibly approved the fabricated permanent denial
recommendation.
173. By changing the panel’s denial recommendation from a two-year waiting period to permanent
exclusion, Defendant Pobjecky deprived Plaintiff
Castro of his right to appeal the formal hearing
panel’s actual two-year disqualification recommendation to the Florida Supreme Court and forced him to
appeal the fraudulent Board findings recommending
permanent denial.
174. Defendant Pobjecky’s conduct set forth herein
was motivated by an evil motive or intent, or involved

App.78a
reckless or callous indifference to Plaintiff Castro’s
rights.
PRAYER FOR RELIEF
Wherefore, Plaintiff Castro requests that this
Court enter judgment against all the Defendants, and
a)

declare that the detrimental impact of the
ongoing constitutional violations in Counts
I, II, III and IV and the unlawful judgment
permanently denying Plaintiff Castro’s admission to The Florida Bar continues into the
present and future unless relief is granted;
and

b)

declare that, as to Counts I, II, III and IV,
the Defendant Justices will presently and
prospectively unlawfully enforce the judgment permanently denying Plaintiff Castro’s
admission to The Florida Bar unless relief is
granted; and

c)

issue a prospective injunction, as to Count I,
II, III and IV, enjoining the Defendant
Justices from unlawfully enforcing the judgment permanently denying Plaintiff Castro’s
admission to The Florida Bar in derogation
of the United States Constitution; and

d)

issue a prospective injunction, as to Count I,
II, III and IV, ordering the Defendant Justices
to vacate the Florida Supreme Court’s unlawful 2012 judgment permanently denying
Plaintiff Castro’s admission to The Florida
Bar; and

App.79a
e)

declare that the Fourteenth Amendment to
the United States Constitution, fundamental
fairness and res judicata principles preclude
Plaintiff Castro’s permanent denial from
the practice of law in Florida based solely
on the identical misconduct upon which the
Florida Supreme Court approved the 1998
ten-year disbarment; and

f)

declare that the evidence presented at the
Board’s 2010 formal hearing Plaintiff Castro
demonstrated by clear and convincing evidence all seven elements of rehabilitation
required by Rule 3-13 of the Bar Admission
Rules for admission when the applicant has
previously engaged in disqualifying conduct;
and

g)

issue a prospective injunction, as to Count I,
II, III and IV, ordering the Defendant Justices
to admit Plaintiff Castro to The Florida Bar;
or

h)

issue a prospective injunction, as to Count I,
II, III and IV, ordering the Defendant Justices
to reinstate and review the Board’s original
two-year denial recommendation in light of
the Florida Supreme Court’s 1998 judgment, the admission rules Plaintiff Castro
relied upon to apply for readmission and the
post-misconduct rehabilitation Plaintiff
Castro established at the formal hearing by
clear and convincing evidence; and

i)

declare, as to Count I, that Defendant Pobjecky violated Plaintiff Castro’s substantive
due process rights and liberty interest to

App.80a
pursue his chosen profession under the
Fourteenth Amendment to the United States
Constitution in the procurement of the
Florida Supreme Court’s unlawful judgment
permanently denying Plaintiff Castro admission to The Florida Bar; and
j)

declare, as to Count II, that Defendant
Pobjecky violated Plaintiff Castro’s procedural
due process rights under the Fourteenth
Amendments to the United States Constitution in the procurement of the Florida Supreme
Court’s unlawful judgment permanently
denying Plaintiff Castro admission to The
Florida Bar; and

k)

declare, as to Count III, that Defendant
Pobjecky violated Plaintiff Castro’s due
process right to an impartial and disinterested
forum under the Fifth and Fourteenth Amendments to the United States Constitution in
the procurement of the Florida Supreme
Court’s unlawful judgment permanently
denying Plaintiff Castro admission to The
Florida Bar; and

l)

declare, as to Count IV, that Defendant
Pobjecky violated Plaintiff Castro’s right of
access to the Florida Supreme Court under
the First Amendment, the Article IV Privileges and Immunities Clause, the Fifth
Amendment, and the Fourteenth Amendment
to the United States Constitution in the
procurement of the Florida Supreme Court’s
unlawful judgment permanently denying
Plaintiff Castro admission to The Florida
Bar;

App.81a
m) declare, as to Count V, that Defendant Pobjecky fraudulently procured the issuance of a
judgment by the Florida Supreme Court
which affirmed a falsified Board findings
and recommendation Defendant Pobjecky
drafted; and
n)

award compensatory and punitive damages
against Defendant Pobjecky; and

o)

award costs of this action, including reasonable attorneys fees, against the Defendant
Justices and Defendant Pobjecky, to Plaintiff
Castro; and p)

p)

grant such other equitable and further
relief as the Court may deem appropriate.
DEMAND FOR JURY TRIAL

Pursuant to Rule 38 of the Federal Rules of Civil
Procedure, Plaintiff Castro demands a trial by jury
for all of the issues pled so triable.
Dated this 24th day of February, 2017.
Respectfully submitted,
/s/ Mycki Ratzan
Mycki Ratzan, Esq.
Florida Bar No. 915238
Ratzan & Faccidomo, LLC
1450 Brickell Avenue,
Suite 2600
Miami, Florida 33131
(305) 374-5730
mycki@rflawgroup.com

App.82a

/s/ Andrew Kassier
Andrew Kassier, Esq.
Florida Bar No. 316547
Andrew M. Kassier, P.A.
4500 South LeJeune Road
Coral Gables, Florida 33146
(305) 662-1000
kassiera@aol.com

App.83a
DECISION AFFIRMING BOARD’S
PERMANENT DENIAL RECOMMENDATION,
SUPREME COURT OF FLORIDA
(FEBRUARY 9, 2012)
IN THE SUPREME COURT OF FLORIDA
________________________
FLORIDA BOARD OF BAR EXAMINERS RE
WILLIAM CASTRO
________________________
No. SC10-2439

PER CURIAM
This case is before the Court on the petition of
William Castro seeking review of the Florida Board
of Bar Examiners’ Findings of Fact, Conclusions of
Law, and Recommendation on his application for admission to The Florida Bar.We have jurisdiction. See
art. V, § 15, Fla. Const. For the reasons expressed
below, we approve the Board’s action regarding Castro’s
application and permanently deny him admission to
the Bar.
BACKGROUND
William Castro was admitted to The Florida Bar
in 1981 and practiced law as a criminal defense attorney. He was later charged and convicted in federal
court on several felony charges, including bribery. As
a result of his criminal conviction, in April 1994 the
Court entered an order suspending Castro from the

App.84a
practice of law in Florida, and ultimately disbarred
him in November 1998, effective, nunc pro tunc, May
12, 1994, and prohibited him from seeking readmission
for a period of ten years. See Fla. Bar v. Castro, 728
So.2d 205 (Fla.1998).
In December 2007, Castro executed an application
for readmission to the Bar. He has successfully
completed all portions of the Florida Bar Examination.
However, during its background investigation, the
Board identified certain information that reflected
adversely on Castro’s character and fitness. Following
an investigative hearing, the Board served Castro
with three Specifications. Castro filed an answer to
these Specifications. A public formal hearing was
held in July 2010.
Specification 1 concerns Castro’s criminal charges
and conviction. It alleges that in 1988, Castro was
approached by Judge Roy Gelber, who had the authority
to appoint him as a court-appointed defense attorney
for defendants appearing in Judge Gelber’s courtroom.
Judge Gelber offered to give Castro numerous court
appointments as a “Special Assistant Public Defender”
in exchange for a percentage of the money Castro
earned from the appointments. Castro agreed to participate in this arrangement. He was later charged in
federal court with one count of conspiracy to commit
racketeering, twenty-seven counts of mail fraud, and
one count of bribery. Castro was convicted of the
charges (except he was acquitted on one count of mail
fraud). On March 17, 1994, he was sentenced to serve
thirty-seven months in prison, followed by three years
of supervised release. Castro has served his sentence,
and his civil rights were restored in 2006. Castro
admitted the allegations contained in Specification 1.

App.85a
Accordingly, the Board found these allegations were
proven and were individually disqualifying for admission to The Florida Bar.
Specification 2 concerns Castro’s suspension and
disbarment. On April 12, 1994, this Court initially
entered an order suspending Castro from the practice
of law. Later, the Bar filed a formal Complaint against
him alleging the following violations of the Rules
Regulating the Florida Bar (Bar Rules): 4–3.5(a) (a
lawyer shall not seek to influence a judge, juror,
prospective juror, or other decision maker except as
permitted by law or the rules of court); 4–8.4(b) (a
lawyer shall not commit a criminal act that reflects
adversely on the lawyer’s honesty, trustworthiness,
or fitness as a lawyer); 4–8.4(c) (a lawyer shall not
engage in conduct involving dishonesty, fraud, deceit,
or misrepresentation); 4–8.4(d) (a lawyer shall not
engage in conduct in connection with the practice of
law that is prejudicial to the administration of justice);
and 4–8.4(f) (a lawyer shall not knowingly assist a
judge or judicial officer in conduct that is in violation
of applicable rules of judicial conduct or other law).
In August 1998, Castro submitted a Conditional Guilty
Plea for Consent Judgment. Following the consent
judgment, on November 12, 1998, the Court entered
an order disbarring Castro from the practice of law
with a ban on seeking readmission for ten years effective, nunc pro tunc, May 12, 1994. Castro also admitted the allegations in Specification 2. The Board
found these allegations were proven and were individually disqualifying for admission to the Bar.
In Specification 3, the Board alleged that Castro’s
Conditional Guilty Plea for Consent Judgment included

App.86a
certain false or misleading statements. However, the
Board found that these allegations were not proven.
In his answer to the Specifications, Castro pled the
affirmative defense of rehabilitation. He presented
substantial evidence in this regard, including twentythree witnesses who testified on his behalf at the
public formal hearing. Castro also testified at the
hearing. He estimated that he has dedicated about
13,300 hours to community service over the last
eighteen years. He has participated in a variety of
community service activities, including volunteer
work with his church; teaching confirmation classes;
serving as a foster parent and as a member of a foster
care review panel; working as a Guardian ad Litem
in the Criminal Law Project; and organizing a
Continuing Legal Education series for the Bar called,
“My Faith in Practice.”
Based on the evidence and testimony presented
at the formal hearing, the Board found that the
allegations in Specification 1 and 2 were proven, and
were individually disqualifying from readmission to
the Bar. The Board also found that Castro’s presentation failed to mitigate the seriousness of his misconduct. In particular, the Board noted the “egregious
nature” of Castro’s actions, stating, “The applicant’s
criminal actions covered an extended period of time
and involved multiple kickbacks to a judge.” Accordingly, the Board concluded “that no amount of rehabilitation will ever suffice to allow the applicant’s
readmission to the Florida legal profession that he
dishonored when he participated in the corruption of
the judicial system that he had sworn as an officer of
the court to respect and uphold.” The Board recommends that Castro be permanently precluded from

App.87a
seeking readmission to The Florida Bar. Castro has
petitioned this Court for review.
ANALYSIS
In a Bar admission proceeding, the burden is upon
the applicant to demonstrate his or her good moral
character. See Fla. Bd. of Bar Exam’rs re H.H.S., 373
So.2d 890, 891 (Fla.1979). We have previously held
that disbarment alone is disqualifying for admission
to the Bar unless an applicant can show clear and
convincing evidence of rehabilitation. See Fla. Bd. of
Bar Exam’rs re Papy, 901 So.2d 870, 872 (Fla.2005).
In determining whether an applicant has sufficiently
demonstrated rehabilitation, the “nature and
seriousness of the offense are to be weighed against
the evidence of rehabilitation.” Fla. Bd. of Bar Exam’rs
re M.L.B., 766 So.2d 994, 996 (Fla.2000) (quoting
Fla. Bd. of Bar Exam’rs re D.M.J., 586 So.2d 1049,
1050 (Fla.1991)). Thus, the “more serious the
misconduct, the greater the showing of rehabilitation
that will be required.” Fla. Bd. of Bar Exam’rs re
J.J.T., 761 So.2d 1094, 1096 (Fla.2000).
Here, the Board determined that no amount of
rehabilitation would ever be sufficient to warrant
readmitting Castro to the Bar. We agree. As a member
of the Bar in this state, Castro had an obligation to
respect and uphold the judicial system and the legal
profession. He violated this obligation when he participated in a scheme involving bribery and kickbacks
to a sitting judge. This type of misconduct, involving
corruption within the legal system, is particularly
egregious. It is clear that since his criminal conviction
and disbarment, Castro has engaged in thousands of
hours of community service, benefiting both his church

App.88a
and the legal community as a whole, in an effort to
show his rehabilitation. While his commitment to
community service is admirable, we agree with the
Board’s conclusion that no demonstration of rehabilitation would ever suffice to allow Castro’s readmission
to the legal profession. Cf. Fla. Bd. of Bar Exam’rs re
W.F.H., 933 So.2d 482 (Fla.2006) (“[T]he total circumstances and underlying facts of the instant case, which
involve misconduct by a sworn law enforcement
officer, are so egregious and extreme, and impact so
adversely on the character and fitness of W.F.H.,
that the recommendation of the Florida Board of Bar
Examiners must be approved. We further conclude
that under the totality of the circumstances, the
grievous nature of the misconduct mandates that W
.F.H. not be admitted to the Bar now or at any time in
the future.”)
CONCLUSION
Accordingly, for the reasons discussed above, we
approve the Board’s Findings of Fact, Conclusions of
Law, and Recommendation, and permanently deny
William Castro admission to The Florida Bar.
It is so ordered.
CANADY, C.J., and PARIENTE, LEWIS, QUINCE,
POLSTON, LABARGA, and PERRY, JJ., concur.

App.89a
PARIENTE, J., SPECIALLY
CONCURS WITH AN OPINION
PARIENTE, J., specially concurring.
I have struggled with this case. On the one hand,
the conduct giving rise to this petition clearly
undermines the public’s trust in the judicial system.
On the other hand, as former Justice Raoul Cantero
testified, William Castro’s case is “one where [he has]
seen more rehabilitation over a greater period of time
than any other case.” Indeed, it was not just Raoul
Cantero who testified on Castro’s behalf. Castro submitted letters from 190 individuals and presented
many witnesses who testified in favor of his readmission
to the Florida Bar, all setting forth specific examples
of how he has demonstrated extraordinary conduct.
The witnesses who testified at Castro’s hearing
included many leaders in the legal and judicial
community, including: Arturo Alvarez; Francisco
Angones; David Rothman; Circuit Judge Beatrice
Butchko; Circuit Judge Stanford Blake; Circuit Judge
Diane Ward; and now Circuit Judge Victoria Brennan.
Each described Castro as a changed person and recommended his readmission without hesitancy. Judge
Blake, who has known Castro since he was a young
attorney, testified that he was “absolutely convinced
Willie is a very good person that made a very bad
mistake.”
The evidence established that Castro logged over
13,000 hours of community service during the past
eighteen years—equivalent to an impressive 700 hours
of service per year. He has volunteered for the Guardian
ad Litem (GAL) program, where he has been described

App.90a
as a “wonderful asset.” The Senior Staff Attorney of
the criminal court’s GAL program recounted several
different cases on which Castro served. She believed
that Castro’s efforts in one GAL case saved a child’s
life and further described him as a “relentless advocate”
and “meticulous.”
Castro is also a licensed foster-care parent, and
he and his wife later adopted each of the three
children they had fostered. The judge who approved
the adoptions described how she “grew to admire and
respect Willie” and had “no doubt that he would be a
very positive member of the Bar.” Castro has led CLE
seminars in which he has taken “accountability for
what he has done.” One witness who previously worked
with Castro in organizing a seminar involving ethics
and the law stated that during the time she has known
him, Castro made her “want to be a better lawyer.”
Another witness testified as to his service to the
community, and especially to children, describing
him as a “person that is just doing everything that he
can to be able to give to people, to give of himself, of
his time, of his talent, and to really make a difference
in people’s lives.” Further, Castro has organized
programs for migrant children, and one witness testified
that these migrant children “wouldn’t have anything
or much if it wasn’t for the efforts that Willie Castro
had done.”
By all accounts, Castro has lived an exemplary
life since his criminal charges, felony convictions,
and prison sentence. Based on what I perceive to be
overwhelming evidence of his rehabilitation, I would
state that Castro has demonstrated all seven elements
of rehabilitation required by Rule 3–13 of the Bar Admission Rules for admission when the applicant has

App.91a
previously engaged in disqualifying conduct. Given
his rehabilitation, the question I have struggled with
is whether the conduct that led to Castro’s ten-year
disbarment qualifies as the type of conduct for which
no amount of rehabilitation will ever suffice to earn
him readmission to the Bar.
In essence, the Court’s pronouncement today is a
decision to change Castro’s sanction of a ten-year
disbarment imposed in 1994 to one of a permanent
disbarment.1 After careful consideration of the circumstances involved here, and despite the evidence of
Castro’s rehabilitation, I have ultimately come down
on the side of agreeing with the Board and the
majority that the crimes in this case—egregious acts
of corruption, which stem from the bribery of a judge
and the receipt of multiple kickbacks from that judge
over an extensive period of time—so dishonored our
judicial system that “no demonstration of rehabilitation
would ever suffice to allow Castro’s readmission to
the legal profession.” Majority op. at 6. In reaching
this decision, I have considered the other side of this
equation—that it was the judge who approached Castro
and that there is no evidence Castro handled the cases
to which he was appointed in any way other than in
a professional manner. Nevertheless, I am unable to
cast aside my concern that the essential illegality at
issue here goes to the very core of our public’s trust
and confidence in the judicial system.

1 I do not believe a sanction of permanent disbarment is necessarily
warranted in all situations where applicants commit felonies
prior to admission. In my view, the imposition of the sanction of
permanent disbarment can vary depending on the type of felony
and the circumstances under which it was committed.

App.92a
Although this judgment of permanent disbarment
may appear to be harsh, we must always remember
that the practice of law is not a right but a privilege,
and it was Castro’s own illegal actions that caused
his downfall. I would hope that Castro will still be
motivated to continue his involvement in the wonderful
community activities that have been described by his
scores of supporters and that he will continue to
teach others the lessons that he has learned. While
these lessons may be too late in his case, Castro’s
efforts may encourage, inspire, and motivate others
to be better lawyers and human beings, all of whom
may look at each day as an opportunity to give back
to our community in a meaningful way.

App.93a
LETTER FROM FLORIDA BOARD OF BAR
EXAMINERS TO CYNTHIA HESSE, ESQUIRE,
NOTICE OF BOARD ACTION
(JULY 22, 2010)

________________________
IN RE:
APPLICATION OF CASTRO WILLIAM FOR
ADMISSION TO THE FLORIDA BAR
________________________
File No. 18000
________________________
To: Cynthia Hesse, Esquire
540 SW 62nd Ave.
Plantation, FL 33317-3937
The Florida Board of Bar Examiners, while In
formal session on July 15-17, 2010, subsequent to
your client’s appearance, decided that your client has
not established the character and Fitness Standard
required under rule 3-23.6(d), Rules of the Supreme
Court Relating to Admissions to the Bar available on
the website above. The board determined that the 2-

App.94a
year denial period would be applicable before an
application to establish rehabittation under rule 2-14
will be accepted.
This Notice is intended to advise you of the board’s
action, but is not formal notice of the “board’s recommendation” under rule 3-30 or 3-40.1 for purpose of
calculating the 60-day period for filing either a
petition for board reconsideration or a petition for
Supreme Court review. The 60-day period for filing a
petition begins on the date you receive the board’s
written Findings of Fact and Conclusion of Law. The
board’s finding and conclusion of law will be mailed
to you within 60 days of receipt if the normal hearing
transcript.
The applicant is responsible for the cost of the
formal hearing transcript under rule 3-23.8 When we
receive a statement from the court reporter, We will
send an invoice.
Dated this 22nd day of July, 2010
Reported by,
/s/ Michele A. Gavagni
Executive Director

App.95a
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND RECOMMENDATION
(OCTOBER 19, 2010)
BEFORE THE FLORIDA BOARD OF
BAR EXAMINERS
________________________
IN RE: APPLICATION OF WILLIAM CASTRO FOR
ADMISSION TO THE FLORIDA BAR,
________________________
File No. 18000
FINDINGS BACKGROUND
The applicant, William Castro, was born on April
22, 1955, in Havana, Cuba. The applicant attended
several undergraduate schools, and received his
Bachelor of Arts degree in May 1977 from Columbia
University, New York, New York. The applicant entered
the University of Pennsylvania Law School on September 7, 1977, and he received the degree of Juris
Doctor on May 19, 1980.
The applicant was originally admitted to practice
law in Florida in 1981. By order dated April 12, 1994,
the Supreme Court of Florida suspended the applicant
from the practice of law. By order dated November
12, 1998, the Court disbarred the applicant for ten
years nuns pro tunc May 12, 1994.
The applicant’s civil rights were restored on
June 15, 2006. The applicant sought readmission to
The Florida Bar by executing a Florida Bar Application

App.96a
on December 13, 2007. The applicant successfully
completed the February 2007 General Bar Examination
and the August 2007 Multistate Professional Responsibility Examination.
During the course of the character and fitness
investigation conducted by the board, certain items of
information that reflected adversely upon the applicant’s character and fitness under the provisions of
Rules 2-12, 3-10, 3-11 and 3-12 of the Rules of the
Supreme Court Relating to Admissions to the Bar
(hereinafter designated as the “Rules”) came to the
board’s attention. The board undertook an extensive
investigation of the applicant’s activities in question.
The board requested the applicant to appear for an
investigative hearing and the applicant did so appear
on January 23, 2009. Following the investigative
hearing, the board determined that Specifications
should be prepared and served upon the applicant and
that the matter of the applicant’s character and fitness
be considered at a public formal hearing.
The Office of General Counsel served the Specifications on March 4, 2009, and the applicant received
them on March 6, 2009. The formal hearing procedures attached to the Specifications advised the
applicant of the following rights: a public formal
hearing on the Specifications, the presentation of
witnesses and any other evidence that might be
pertinent to the issues, and access to the board’s
subpoena power.
The applicant filed an Answer to the Specifications
on May 12, 2009. By letter dated June 24, 2009, the
applicant’s attorney requested that the public formal
hearing be scheduled during the board’s next available

App.97a
meeting in Miami or Coral Gables, Florida. The public
formal hearing was convened on July 15, 2010, in Coral
Gables, Florida. The applicant and his counsel,
Randolph Braccialarghe and Cynthia Hesse, appeared
at the hearing. Robert G. Blythe represented the Office
of General Counsel.
The Specifications previously served upon the
applicant read as follows:
Specification 1
In October 1981, you were admitted to The Florida
Bar. in or about 1988, you were practicing law as a
criminal defense lawyer in Miami, Florida, when you
were approached by Judge Roy Gelber, who had the
authority to appoint you as court-appointed defense
counsel for defendants appearing in his court. Judge
Gelber told you that he was having financial problems.
Judge Gelber offered to give you numerous court
appointments as a Special Assistant Public Defender
in exchange for you giving him a percentage of the
money you earned. You agreed to engage in this
conduct.
In or about 1991, a criminal case was brought
against you in federal court. In a Superseding
Indictment, you were charged with the following: one
count of racketeering, extortion, conspiracy to commit
extortion, and attempt to commit extortion; 27 counts
of mail fraud; and one count of bribery. You were
found guilty of all of these counts, except for one mail
fraud count.
On March 17, 1994, you were sentenced to 37
months imprisonment and three years of supervised
release. On June 15, 2006, your civil rights were

App.98a
restored, except for the right to own, possess, or use
firearms.
Specification 2
As a result of the conduct and conviction described
in Specification 1 above, on April 12, 1994, the Supreme
Court of Florida issued an Order suspending you from
the practice of law in Florida. On April 22, 1994, The
Florida Bar filed a Complaint against you in the
Supreme Court of Florida. In this Complaint, The
Florida Bar alleged you violated the following Rules
Regulating The Florida Bar:


Rule 4-3.5(a) (A lawyer shall not seek to
influence a judge, juror, prospective juror, or
other decision maker except as permitted by law
or the rules of court.)



Rule 4-8.4(b) (A lawyer shall not commit a
criminal act that reflects adversely on the
lawyer’s honesty, trustworthiness, or fitness
as a lawyer in other respects.)



Rule 4-8.4(c) (A lawyer shall not engage in
conduct involving dishonesty, fraud, deceit, or
misrepresentation.)



Rule 4-8.4(d) (A lawyer shall not engage in
conduct that is prejudicial to the administration
of justice.)



Rule 4-8.4(f) (A lawyer shall not knowingly
assist a judge or judicial officer in conduct
that is in violation of applicable rules of judicial
conduct or other law.)

On August 11, 1998, you signed a Conditional
Guilty Plea for Consent Judgment in which you agreed

App.99a
to a ten-year disbarment nuns pro tunc to May 12,
1994. By Order dated November 12, 1998, the Supreme
Court of Florida disbarred you for ten years, and
entered a judgment for costs totaling $897.14.
Specification 3
As part of the proceedings described in Specification 2 above, on August 11, 1998, you signed a
Conditional Guilty Plea for Consent Judgment. In
paragraph 4 of this pleading, you made the following
statement: “Respondent has maintained throughout
trial and continues to maintain that he is innocent of
the charges brought against him.” This statement by
you was false, misleading, or lacking in candor in
that you had knowingly committed the crimes for which
you were convicted.
FINDINGS OF FACT
Specification 1 was amended during the formal
hearing without objection. (Formal Hearing Transcript,
pages 11-12, hereinafter designated by “T,” followed
by the page number) Specification 1 as amended
pertains to the applicant’s criminal prosecution in
response to a federal grand July’s Superseding
Indictment charging the applicant with several of the
following criminal offenses: one count of conspiracy
to commit racketeering; 27 counts of mail fraud; and
one count of bribery. (Formal Hearing Record—Board
Exhibit 2 at Specification 1 hereinafter referred to as
“FHR-BE” followed by the Exhibit number)
As alleged in Specification 1, the applicant was
found guilty of all counts, except for one mail fraud
count. (Id.) On March 17, 1994, the court sentenced

App.100a
the applicant to 37 months imprisonment and three
years of supervised release. (Id.)
By his Answer to Specifications, the applicant
admitted the allegations of Specification 1 as amended.
(FHR-BE 3 at answer to Specification 1) The formal
hearing record also contains copies of documents
pertaining to the allegations of Specification 1.
(Formal Hearing Record—Office of General Counsel
Exhibits 2 through 4 hereinafter referred to as “FHROGCE” followed by the Exhibit number)
Based on the record before it, the board finds
that the allegations of Specification 1 have been
proven. The language of this Specification, reproduced
above under the Findings Background, is hereby
adopted by the board as its specific findings of fact.
The board further finds that the proven allegations of
Specification 1 are individually disqualifying for admission to The Florida Bar.
As alleged in Specification 2, the Supreme Court
of Florida initially suspended the applicant based on
his felony convictions. (FUR-BE 2 at Specification 2)
In response to a Complaint filed against the applicant
by The Florida Bar, the applicant executed a
Conditional Guilty Plea for Consent Judgment by which
he agreed to disbarment for ten years from the date
of his suspension. (Id.) The referee accepted the
applicant’s plea and the Supreme Court of Florida
approved the referee’s report resulting in the applicant’s
disbarment nuns pro tunc May 12, 1994, for ten years.
(Id.)
By his Answer to Specifications, the applicant
admitted the allegations of Specification 2. (F1-1RBE 3 at answer to Specification 2) The formal hearing

App.101a
record also contains copies of documents pertaining
to the allegations of Specification 2. (FHR-OGCE 5-6)
Based on the record before it, the board finds that
the allegations of Specification 2 have been proven.
The language of this Specification, reproduced above
under the Findings Background, is hereby adopted by
the board as its specific findings of fact. The board
further finds that the allegations of Specification 2
are individually disqualifying for admission to The
Florida Bar.
Specification 3 concerns the applicant’s Conditional
Guilty Plea for Consent Judgment executed by the
applicant in connection with his bar disciplinary proceedings in 1998. This Specification alleges that this
document contained a misrepresentation by the
applicant. (FUR-BE 2 at Specification 3)
By his Answer to Specifications, the applicant
denied that he intended any misrepresentation in the
Conditional Guilty Plea for Consent Judgment. (FHRBE 3 at answer• to Specification 3) Based on the record
before it, the board finds that Specification 3 has not
been proven.
By his Answer to Specifications, the applicant
pled the affirmative defense of rehabilitation. (FHRBE 3 at Affirmative Defense of Rehabilitation) The
applicant introduced 218 exhibits into the record. (T
22; Formal Hearing Record—Applicant Exhibits 1-218,
hereinafter referred to as “FHR-AE” followed by the
Exhibit number) These exhibits included character
letters and responses to inquiries by the board during
its background investigation. (FHR-AE 3-190) The
exhibits also included documents pertaining to his

App.102a
service to his community, including his church. (FHRAE 191-197, 206-218)
The applicant also presented character witnesses
during the formal hearing. Lorn Green testified on
the applicant’s behalf. (T 24-29) Mr. Green previously
submitted a character letter in support of the applicant’s
readmission. (FHR-AE 3) The applicant ran Mr. Green’s
company for five years while Mr. Green attended a
seminary. (T 27) The applicant “did an excellent job.”
(T 27)
Terry Fogel testified on the applicant’s behalf. (T
29-39) Ms. Fogel previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 4) She met the applicant at a CLE seminar
called “Our Faith in Practice.” (T 30) For a number of
years, she has worked with the applicant in putting
on seminars regarding ethical issues in the practice
of law. (T 32-34) When discussing his prior misconduct,
the applicant “took accountability for what he had
done.” (T 35) During the time she has known him, the
applicant has made Ms. Fogel “want to be a better
lawyer.” (T 35)
Miguel Itchon testified on the applicant’s behalf.
(T 40-44) Mr. Itchon previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 5) He discussed the applicant’s involvement
in their community including the applicant’s work
with migrant workers in Homestead, Florida. (T 4243)
Inaki Saizarbitoria testified on the applicant’s
behalf (T 44-50) Mr. Saizarbitoria previously submitted
a character letter in support of the applicant’s readmission. (FHR-AE 6) Based on firsthand knowledge,

App.103a
Mr. Saizarbitoria described the applicant’s contributions to their community especially to children. (T 4648) In the applicant, Mr. Saizarbitoria sees “a person
that is just doing everything that he can to be able to
give to people, to give of himself, of his time, of his of
talent and to really make [sic] difference in people’s
lives, deep differences. . . . ” (T 48)
Juan Carlos Freyre testified on the applicant’s
behalf. (T 51-58) Mr. Freyre previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 7) The applicant represented Mr.
Freyre in his difficulties with the criminal justice
system. He owes “a great deal to Mr. Castro” who
assisted Mr. Freyre in turning his life around following
his last incarceration in prison. (T 54) He described
the applicant as “a person that has dedicated himself
to helping other people.” (T 56)
Alice Keller testified on the applicant’s behalf. (T
59-61) Ms. Keller previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 8) The applicant had taught the confirmation
class at church that Ms. Keller’s son attended. (T 59)
The applicant was the best religious instructor that
her son had. (T 60) The applicant taught her son “to
care for those who could not do as well for themselves
as he could, to bring those along that had been left
behind and to practice his faith.” (T 60)
Frances Feinberg testified on the applicant’s
behalf. (T 62-71) Ms. Feinberg previously submitted
a character letter in support of the applicant’s readmission. (FHR-AE 10) She is the senior staff attorney
for the criminal court’s Guardian ad item Program.
(T 62-63) She has known the applicant for over three
years in the applicant’s capacity as a guardian. (T 63)

App.104a
Ms. Feinberg recounted several difficult cases handled
by the applicant. In one case, Ms. Feinberg believes
that the applicant saved the child’s life. (T 66) Ms.
Feinberg described the applicant as “a relentless
advocate” and “meticulous.” (T 68-69)
Dr. Alfredo Rabassa testified on the applicant’s
behalf. (T 72-80) Dr. Rabassa previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 12) Dr. Rabassa met the applicant on
a religious retreat in 1996 known as the Emmaus
retreat. (T 72) Since then, they have worked together
putting on many retreats. (T 73, 76) The applicant
has also organized programs for foster children. (T
76-78) Dr. Rabassa addressed the applicant’s reputation
in his community: “The mutual respect that Willie
has developed over the years has been one of his
offering unconditionally of himself, and I think that
that is something that we don’t see often in this
community.” (T 79)
Father Fernando Heria testified on the applicant’s
behalf. (T 81-97) Father Heria previously submitted
a character letter in support of the applicant’s readmission. (FHR-AE 13) Father Heria is pastor at
Saint Brendan Catholic Church and a member of The
Florida Bar. (T 83) He knew the applicant as a fellow
criminal defense attorney during the 1983-1985 time
period. (T 83-84) After his return from Rome in 2000,
Father Heria met the applicant during an. Emmaus
retreat. (T 86) The applicant impressed Father Heria
“in a very positive way because it took a lot of guts to
be able to speak frankly about what [the applicant]
had done wrong in his life and how he had tried to—
began to make amends and heal from that experience.”
(T 86)

App.105a
Josephine Vila testified on the applicant’s behalf.
(T 97-104) Ms. Vila previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 14) Because of the applicant’s encouragement
and assistance, Ms. Vila became a foster parent and
she subsequently adopted a child. (T 98) She has also
been involved with the applicant’s programs for migrant
children. Ms. Vila added: “These are children that
wouldn’t have anything or much if it wasn’t for the
efforts that Willie Castro had done.” (T 101) The
applicant is the godfather of her son because, being a
single mom, she wanted her “son to be surrounded with
good men, good role models.” (T 103)
Vincent Flynn testified on the applicant’s behalf.
(T 105-128) Mr. Flynn previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 15) He is a criminal defense attorney. (T
105-106) As practicing attorneys, he and the applicant
shared office space the early 1980s. (T 106, 115) In
1991, the applicant retained Mr. Flynn to represent
the applicant in his criminal case. (T 106-107) Mr.
Flynn discussed the circumstances surrounding the
inclusion of the language in the Conditional Guilty
Plea for Consent Judgment contained in Specification
3 and alleged to be false, misleading, or lacking in
candor. (T 111-114) The language came from Mr. Flynn.
(T 112) He “wrote it word for word.” (T 119)
Juan Zorrilla testified on the applicant’s behalf.
(T 129-132) Mr. Zorrilla previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 16) He is a practicing attorney who
hired the applicant as a legal assistant in 2004. (T
129) The applicant worked fulltime for Mr. Zorrilla for
about nine months. (T 129) Mr. Zorrilla continues to

App.106a
use the applicant for projects. (T 129) Mr. Zorrilla
found the applicant to be “very smart and very affable.”
(T 131) They “got along really well.” (T 131)
Dr. Orlando Silva testified on the applicant’s
behalf. (T 133-140) Dr. Silva previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 11) Dr. Silva met the applicant on an
Emmaus retreat in 2001. (T 133134) The applicant
was instrumental in getting Dr. Silva involved in medical missions to foreign countries several times a year.
(T 134-135) The applicant had also assisted in
securing volunteers and donations for the missions.
(T 135-136) Regarding the applicant’s influence, Dr.
Silva stated: “I have seen and learned so much from
him, not only from his humility but from his conviction
in helping others through his honestly [sic] and his
testimony.” (T 138)
Fernando Garcia testified on the applicant’s behalf.
(T 141-149) Mr. Garcia previously submitted a character
letter in support of the applicant’s readmission.
(FHR-AE 17) He is an attorney having been admitted
to The Florida Bar in 1980. (T 141) He has known the
applicant since high school. (T 141-142) The applicant
changed Mr. Garcia by getting him to become involved
in the community. (T 143) As to the applicant’s readmission: “Admitting somebody like Willie would be a
great thing because he just—his heart is in helping
people and rehabilitating others, as he did with me.”
(T 143)
Juan Gonzalez testified on the applicant’s behalf.
(T 150-158) Mr. Gonzalez previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 18) He is an attorney having been
admitted to The Florida Bar in 1983. (T 150) He has

App.107a
known the applicant since high school. (1 150) As to
the applicant’s rehabilitation, Mr. Gonzalez stated:
“It is not just the fact that he has worked so hard in
the community. It is the fact that he has done the
retreats; that he has adopted children, been a good
father, good husband, good friend.” (T 155)
Raoul Cantero testified on the applicant’s behalf.
(T 159-171, 247-258) Mr. Cantero previously submitted
a character letter in support of the applicant’s readmission. (FHR-AE 19) He met the applicant back in
1994 on an Emmaus retreat. (T 159) The applicant
encouraged and pushed Mr. Cantero to establish religious retreats at his own church. (T 160-161) Mr.
Cantero noted that he had reviewed a number of cases
in the area of bar admissions and reinstatements of
suspended attorneys during his tenure on the Supreme
Court of Florida. As to the applicant’s rehabilitation,
Mr. Cantero stated: “Willie’s case is the one where I
have seen more rehabilitation over a greater period
than any other case.” (T 164)
Arturo Alvarez testified on the applicant’s behalf.
(T 171-177) Mr. Alvarez previously submitted a character letter in support of the applicant’s readmission.
(FHR-AE 20) He is an attorney having been admitted
to The Florida Bar in 1973 and he served as the
president of the Cuban American Bar Association. (T
171-172) He has also served on judicial nominating
commissions since 1992. (T 172) Mr. Alvarez hired
the applicant “to do some work in the criminal
defense area. . . . ” (T 174) As a result, Mr. Alvarez
got to know the applicant better. (T 174) Mr. Alvarez
“was very much impressed by the dignity, the humility,
the contrition and the willingness to re-establish
himself.” (T 175)

App.108a
Circuit Judge Beatrice Butchko testified on the
applicant’s behalf. (T 177-186) Judge Butchko previously submitted a character letter in support of the
applicant’s readmission. (FHR-AE 21) She has been a
judge since 2006 and she has known the applicant
since 1989. (T 178-179) Most recently, the applicant
appeared before Judge Butchko because the applicant
and his wife were the foster parents of a child whose
case was before the judge. (T 181-182) Judge Butchko
“grew to admire and respect Willie” during that process.
(T 181) As to the applicant’s readmission, Judge
Butchko stated: “I have no doubt that he would be a
very positive member of the Florida Bar.” (T 183)
Circuit Judge Stanford Blake testified on the
applicant’s behalf. (T 187-200) Judge Blake previously
submitted a character letter in support of the applicant’s
readmission. (FHR-AE 22) He has been a judge since
1995 and he has known the applicant since the applicant was a young attorney. (T 187) More recently, the
applicant put on a seminar on morality, ethics, and
the law where Judge Blake was a speaker. (T 188)
Judge Blake recommends the applicant’s readmission
without any hesitancy. He explained: “I’m absolutely
convinced Willie is a very good person that made a
very bad mistake.” (T 192)
Circuit Judge Diane Ward testified on the applicant’s behalf. (T 200-212) Judge Ward previously submitted a character letter in support of the applicant’s
readmission. (FHR-AE 23) She has been a judge since
2003 and she has known the applicant since they
worked together at the Public Defender’s Office. (T
201) She has maintained contact with the applicant.
(T 204) Judge Ward is aware of the applicant’s assistance to an assistant public defender throughout the

App.109a
process of her adoption of a child. (T 205) She
described the applicant as “wonderful, a man of great
character . . . [and] highly recommend him to be
readmitted to the bar.” (T 205) She also knows that
the applicant “has been a wonderful asset to the
Guardian ad Litem program.” (T 207)
County Judge Victoria Brennan testified on the
applicant’s behalf. (T 213-225) Judge Brennan previously submitted a character letter in support of the
applicant’s readmission. (FHR-AE 24) She has been a
judge since 2006 and she has known the applicant for
20 years. (T 214) When Judge Brennan was a young
lawyer, she knew the applicant. She did not like him
and found him to be “arrogant, smug . . . a jerk.” (T
215) A few years ago, she saw him at a party and she
was favorably impressed in that the applicant “was
definitely a different person . . . ” (T 216) Judge
Brennan does not think that the applicant “is ever
going to forget he needs to be constantly vigilant,
grateful and give back to his community and continue
in his path of faith.” (T 220)
David Rothman testified on the applicant’s behalf.
(T 226-246) Mr. Rothman previously submitted a
character letter in support of the applicant’s readmission. (FHR-AE 25) He first met the applicant when
the applicant worked at the Public Defender’s Office.
(T 229) He was impressed by the applicant’s
courtroom skills but Mr. Rothman was put off by the
applicant’s arrogance. (T 229-230) Following the
applicant’s release from prison, he noticed that the
applicant had changed. (T 233-235) As to the applicant’s
readmission, Mr. Rothman stated that the applicant
“would be a remarkable member of the bar.” (T 236)

App.110a
Francisco Angones appeared at the formal hearing
on the applicant’s behalf and called by the attorney
for the Office of General Counsel. (T 267-281) Mr.
Angones responded to questions about his service on
the Character and Fitness Commission and its recommendations that would make convicted felons
ineligible to practice law and disbarment permanent.
He supported both of those recommendations. (T 268269) Mr. Angones responded to additional questioning
about the appropriateness of having exceptions to
those recommendations as in the applicant’s case. (1
269-280)
During his formal hearing presentation, the
applicant testified on his own behalf. (T 286-323) The
applicant highlighted his rehabilitation. The applicant
has actively participated in Emmaus retreats. (T 286291) During the last 18 years, he has attended over
50 religious retreats for the full weekend and another
50 retreats that he attended a portion of the weekend.
(T 290) The applicant discussed his service during
his term in prison. (T 291-295)
The applicant also discussed his service with
other programs, including the following: foster parenting (T 306-309); a CLE program titled “My Faith in
Practice” (T 314-315); and as guardian ad litem in
the Criminal Law Project (T 315-316). As to his number
of hours of community service, the applicant testified: “So I went back and over a 18-year period and
very conservatively I performed 13,300 hours, approximately.” (T 322-323) The applicant also responded to
questioning by opposing counsel and members of the
board. (T 323-370)
Upon consideration of the applicant’s formal hearing presentation, the board finds that his evidence

App.111a
fails to establish a defense to the allegations of the
Specifications except for Specification 3 that the
board finds not proven. The board further finds the
applicant’s evidence fails to mitigate the seriousness
of proven Specifications 1 and 2 that the board finds
individually disqualifying. Lastly, the board finds
that the applicant’s formal hearing presentation failed
to convince the board that he should be readmitted to
The Florida Bar in light of the egregious nature of
his misconduct.
CONCLUSIONS OF LAW
In 2006, the Supreme court of Florida issued a
decision wherein the Court concluded that the bar
applicant should be permanently barred from admission
to The Florida Bar. The Court reasoned:
Upon consideration of W.F.H.’s Petition for
Review filed in the above cause, based on
the totality of the circumstances, the findings of fact and conclusions of law, the recommendation of the Florida Board of Bar
Examiners that W.F.H. not be admitted to
The Florida Bar is approved. This Court
concludes that the total circumstances and
underlying facts of the instant case, which
involve misconduct by a sworn law enforcement officer, are so egregious and extreme,
and impact so adversely on the character
and fitness of W.F.H., that the recommendation of the Florida Board of Bar Examiners
must be approved. We further conclude that
under the totality of the circumstances, the
grievous nature of the misconduct mandates
that W.F.H. not be admitted to the Bar now

App.112a
or at any time in the future. Accordingly,
W.F.H.’s petition is hereby denied.

Florida Board of Bar Examiners re: WF.H., 933 So.2d
482 (Fla. 2006), cert. denied, 549 U.S. 1020 (2006).
William Castro appeared before the board as a
convicted felon and disbarred attorney. There is no
dispute as to the egregious nature of the applicant’s
prior misconduct that eventually resulted in his
criminal conviction, incarceration, and disbarment.
The applicant’s criminal actions covered an extended
period of time and involved multiple kickbacks to a
judge. As stated in one of the character letters submitted on the applicant’s behalf: “There is no crime
that directly and adversely affects more the public’s
confidence in the judicial system than bribery, even
with the simple goal of obtaining court appointments
for attorneys.” (FHR-AE 27 at April 21, 2008, letter of
Federico A. Moreno, Chief U.S. District Judge,
Southern District of Florida)
As the Florida Supreme Court held in the W.F.H.
case, the board concludes that no amount of rehabilitation will ever suffice to allow the applicant’s readmission to the Florida legal profession that he
dishonored when he participated in the corruption of
the judicial system that he had sworn as an officer of
the court to respect and uphold. Based on the record
before it, the board concludes that the applicant fails
to meet the standards of conduct and fitness required
under the provisions of rule 3 of the Rules.
RECOMMENDATION
The board recommends that William Castro not be
readmitted to The Florida Bar.

App.113a
DATED this 19th day of October, 2010.
/s/ Michele A. Gavagni
Executive Director
Florida Board of Bar Examiners

App.114a
LETTER FROM FLORIDA BOARD OF BAR
EXAMINERS TO MS. CYNTHIA HESSE, ESQUIRE
(OCTOBER 19, 2010)

In Re: Castro, William
File No. 18000
To: Cynthia Hesse, Esquire
540 SW 62nd Ave.
Plantation, FL 33317-3937
Dear Ms. Hesse:
Enclosed you will find the Findings of Fact,
Conclusions of Law, and Recommendation regarding
your client's application for readmission to The Florida
Bar. The final recommendation of the board as outlined
in the findings differs from that referenced in the
July 22, 2010, Notice of Board Action. The findings
and recommendation are controlling.
Sincerely yours,
/s/ Michele A. Gavagni
Executive Director

App.115a
TRANSCRIPT OF BOARD HEARING PANEL’S
POST-DELIBERATIONS
(JULY 15, 2010)
FLORIDA BOARD OF BAR EXAMINERS
________________________
PUBLIC HEARING
________________________
RE: APPLICATION OF WILLIAM CASTRO
________________________
Date and Time: Thursday, 6:15 p.m.

[Transcript p. 1 to 7]
This panel has determined in a three-two vote to
deny a recommendation for readmission to the
Supreme Court. The findings—for two years.
The findings of the panel that Specification I as
amended was admitted proven and individually
disqualifying.
Specification II was admitted proven, individually
disqualifying.
Specification III was admitted in part, not proven.
MR. LAWRENCE: Right, not proven.
MS. DAVIS: And individually disqualifying. The
comments by the panel.
MS. DOYLE: I don’t have to write comments?

App.116a
MS. DAVIS: Rehabilitation was massive. The affirmative defense was given and the—Dave Rowland
is going to sum up the two vote.
MR. ROWLAND: The two vote—and, Judy, pipe in
when you want to was. If there was ever a case
for rehabilitation, this would have been it, realizing
the concession for court corruption was a very
high bar hurdle. This applicant performed over
13,000 community service hours. This Board
member does not see anybody coming ever close
to performing that number, realizing the three
vote that does not seem to be the issue.
The issue for them seem to be the criminal conduct
and our position was that this was a rehab hearing
and this was—he had been punished for the
criminal conduct.
The rehabilitation hearing, he brought in judges,
Florida Bar presidents, members of the former
Board of Bar Examiners—
MS. DOYLE: A priest.
MR. ROWLAND:—a priest who testified to his good
moral character and all of the other elements in
the rules dealing with rehabilitation, and the
two believe all elements of rehabilitation had
been satisfied.
MS. DAVIS: The three vote is that although the
rehabilitation was voluminous, important—
MR. KUVIN: Impressive.
MS. DAVIS: Life-changing that some parts when you
change your life you still carry the— If you are
dishonorably discharged, you probably never get

App.117a
to join the service again. There are some privileges
once you lose, your law enforcement certification
or your teaching certification or your Bar license
that—I don’t know how you rehab from being part
of a court corruption scheme. And that, I think,
has led the three-vote to say if the Court decides—
and, to me, this would be a major statement to
the Bar Examiners that with massive rehabilitation that the underlying action of an attorney
can go away.
From what I saw in the case of—what are the
initials—W.F.H. leads me to believe that the Court
says there are cases where the answer is no.
When I am in doubt to the Court, I’m not going
to recommend.
MR. LAWRENCE: And I just want to—
MS. DAVIS: Still on the record.
MR. LAWRENCE: I just want to put on the record
that like the applicant in W.F.H., the misconduct
in this case by a sworn officer of the Court is so
egregious and extreme and it has impacted so
adversely on the character and fitness of this
particular applicant that the recommendation of
this panel can be nothing but to keep him out.
Because it was over a pattern—period of time. It
was pervasive. It wasn’t a one-time isolated event.
It was well thought out, well executed scheme,
artifice conspiracy over a period of time that
there is no showing that we can justify or minimize
the egregious misconduct in this case performed
by a lawyer, which is a higher standard than a
non-lawyer or someone who is seeking admission
to the Florida Bar for the first time.

App.118a
MS. DAVIS: Are we good?
MR. KUVIN: Yes.
MR. ROWLAND: Yes.
MS. DAVIS: Then we are off the record.
(Thereupon, these proceedings
were concluded at 6:30 p.m.)
STATE OF FLORIDA COUNTY OF DADE
I, JANICE D. JONES, do hereby certify that the
matter of In Re: William Castro came on before the
Florida Board of Bar Examiners, File No. 18000, that
I was authorized to and did report the deliberations
of said public hearing on July 15, 2010, and that the
foregoing pages, numbered from 1 to including 6,
represent a true and accurate record of the proceedings
in the above-mentioned case.
WITNESS my hand in the City of Miami this 30th
day of July, 2010.
Janice D. Jones
RPR

App.119a
ORDER TO SHOW CAUSE
SUPREME COURT OF FLORIDA
(MAY 6, 2013)
SUPREME COURT OF FLORIDA
________________________
FLORIDA BOARD OF BAR EXAMINERS
v.
RE: WILLIAM CASTRO
________________________
Cause No. SC10-2439
William Castro has filed “Petitioner’s Ex Parte
Motion for Leave of Court to File Motion to Vacate
Judgment” and “Petitioner’s Verified Motion to Vacate
Judgment Based on Fraud, Misrepresentation or Other
Misconduct Committed by the Florida Board of Bar
Examiners” in which he asks the Court to reopen this
closed case and consider additional information. This
case was final on April 26, 2012, when the Court denied
Castro’s motion for rehearing of its February 9, 2012,
order approving the Florida Board of Bar Examiners’
findings of fact, conclusions of law, and recommendation
that Castro be permanently denied admission to The
Florida Bar. Castro has provided no authority in his
motion or any other filing setting forth the authority
upon which this Court can grant leave to Castro to
file a motion to vacate the final disposition of the
Court and reopen the case for consideration of new
information. William Castro is therefore ordered to

App.120a
show cause by May 22, 2013, why his motion should
not be dismissed as unauthorized. The Florida Board
of Bar Examiners may serve a reply on or before June
3, 2013.
As William Castro’s motion was not served on the
Florida Board of Bar Examiners, a copy of the motion
is attached to the Florida Board of Bar Examiners’
copy of this order and provided to both parties.
A True Copy Test:
/s/ Thomas D, Hall
Clerk, Supreme Court

App.121a
FLORIDA BOARD OF BAR
EXAMINERS’ FINDINGS WORKSHEET,
PUBLIC FORMAL HEARING
(JULY 15, 2010)
APPLICANT: Castro, William
NOTETAKER: Judy Doyle
FILE NO.: 18000
PRESIDING OFFICER: Valerie J. Davis
HEARING DATE: 07/15/10
Spec #1
Applicant:

 Admits

Panel Finds:  Proven
 Individually disqualifying
Spec #2
Applicant:

 Admits

Panel Finds:  Proven
 Individually disqualifying
Spec #3
Applicant:

 Admits in Part

Panel Finds:  Not Proven
 Not disqualifying
PANEL ACTION OPTIONS AFTER A FORMAL
HEARING PROVIDED BY RULE 3'23.6 (A-D) AS
QUOTED BELOW:
DENY Option D:
 Comment: Rule 3-23.6 (as amended by the court
on May 1, 2008) provided: “ln cases of denial, a 2-

App.122a
year disqualification period is presumed to be the
minimum period of time required before an applicant
or registrant may reapply for admission and establish
rehabilitation. In cases involving significant mitigating
circumstances, the board has the discretion to recommend that the applicant or registrant be allowed to
reapply for admission within a specified period of less
than 2 years. In cases involving significant aggravating factors (including but not limited to material
omissions or misrepresentations in the application
process), the board has the discretion to recommend
that the applicant or registrant be disqualified from
reapplying for admission for a specified period
greater than 2 years but not more than 5 years.”
 1) Recommend applicant's denial for the standard 2-year.

App.123a
LETTER FROM FLORIDA BOARD OF BAR
EXAMINERS TO FORMAL HEARING PANEL
(SEPTEMBER 15, 2010)

In Re: Castro, William
File No. 18000
To: Cynthia Hesse, Esquire
540 SW 62nd Ave.
Plantation, FL 33317-3937
Dear Board Members:
Enclosed is a draft of Findings of Fact and Conclusions of Law. Also enclosed is a copy of the notes of
the panel's findings as recorded by Ms. Doyle. It is the
board's policy that the presiding officer of the formal
hearing panel and the board member assigned note
taking responsibility review and approve the Findings prior to mailing.
The findings Recommendation would normally
state the length of the disqualification period when
there is a recommendation of denial (e.g. two years
as checked on the findings worksheet in this case). In
this case and as stated in the Conclusions of Law, the
panel majority decided that no amount of rehabilitation

App.124a
would be sufficient for the applicant to overcome his
past egregious conduct. Thus, the Recommendation does
not set forth a specific period of disqualification. If
you disagree with this approach, please state what
action you wish to take.
We will forward the Findings as drafted to the
applicant after September 27, 2010, if you do not
advise any changes be made before that date.
Sincerely yours,
/s/ Michele A. Gavagni
Executive Director

App.125a
ORDERING DENYING CERTIORARI
SUPREME COURT OF THE UNITED STATES
(OCTOBER 1, 2012)
SUPREME COURT OF THE UNITED STATES
________________________
WILLIAM CASTRO,

Petitioner,
v.
FLORIDA BOARD OF BAR EXAMINERS.
________________________
No. 12-124
OPINION
Motion of Florida Association of Criminal Defense
Lawyers—Miami Chapter for leave to file a brief as
amicus curiae granted. Petition for writ of certiorari
to the Supreme Court of Florida denied.

App.126a
ORDER DISMISSING MOTION TO VACATE,
SUPREME COURT OF FLORIDA
(OCTOBER 18, 2013)
SUPREME COURT OF FLORIDA
________________________
FLORIDA BOARD OF BAR EXAMINERS

Petitioner(s)
v.
RE: WILLIAM CASTRO

Respondent(s)
________________________
Cause No. SC10-2439
Petitioner’s “Ex Parte Motion for Leave of Court
to File Motion to Vacate Judgment and Index of
Appendices Under Seal” filed in this Court on November
7, 2012, is hereby denied.
Petitioner’s “Verified Motion to Vacate Judgment
Based on Fraud, Misrepresentation or Other Misconduct
Committed by the Florida Board of Bar Examiners”
filed in this Court on November 7, 2012, is hereby
dismissed as unauthorized.
A True Copy Test:
/s/ Thomas D, Hall
Clerk, Supreme Court

